<html>
<title> - NATIVE HAWAIIAN EARLY EDUCATION, DEVELOPMENT AND CARE</title>
<body><pre>[Senate Hearing 107-451]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-451
 
         NATIVE HAWAIIAN EARLY EDUCATION, DEVELOPMENT AND CARE
=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

   TO RECEIVE TESTIMONY ON EARLY CHILDHOOD EDUCATION AND DEVELOPMENT

                               __________

                             APRIL 5, 2002
                              HONOLULU, HI








                     U.S. GOVERNMENT PRINTING OFFICE
79-695                       WASHINGTON : 2002
________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001








                      COMMITTEE ON INDIAN AFFAIRS

                   DANIEL K. INOUYE, Hawaii, Chairman

            BEN NIGHTHORSE CAMPBELL, Colorado, Vice Chairman

FRANK MURKOWSKI, Alaska              KENT CONRAD, North Dakota
JOHN McCAIN, Arizona,                HARRY REID, Nevada
PETE V. DOMENICI, New Mexico         DANIEL K. AKAKA, Hawaii
CRAIG THOMAS, Wyoming                PAUL WELLSTONE, Minnesota
ORRIN G. HATCH, Utah                 BYRON L. DORGAN, North Dakota
JAMES M. INHOFE, Oklahoma            TIM JOHNSON, South Dakota
                                     MARIA CANTWELL, Washington

        Patricia M. Zell, Majority Staff Director/Chief Counsel

         Paul Moorehead, Minority Staff Director/Chief Counsel

                                  (ii)

  








                            C O N T E N T S

                              ----------                              
                                                                   Page
Statements:
    Akaka, Hon. Daniel K., U.S. Senator from Hawaii..............     2
    Akau, Nanea, student, Child and family Service Alternative 
      School.....................................................    21
    Akina, Charman J., M.D., medical director, Waimanalo Health 
      Center.....................................................    28
    DeCambra, Ho'oipo............................................     9
    Durand, Momi, executive director, Keiki O Ka 'Aina Preschool.    24
    Fallin, Lynn, special assistant and policy advisor on 
      children and families, Office of the Governor..............    32
    Fitzgerald, Mike, president and CEO, Enterprise Honolulu.....    30
    Inouye, Hon. Daniel K., U.S. Senator from Hawaii, chairman, 
      Committee on Indian Affairs................................     1
    Jenkins, Leialoha............................................    19
    Johnson, William.............................................    12
    Matsuoka, Lori, parent, Keiki O Ka 'Aina Preschool...........    17
    McCubbin, Hamilton I., chief executive officer, The 
      Kamehameha Schools.........................................     4
    Robins, Kalau'ihilani, assistant director, Punana Leo O 
      Kawaiaha'o.................................................    12
    Silva, Brandy, parent........................................    11
    Thompson, Myron K............................................     3

                                Appendix

Prepared statements:
    Akaka, Hon. Daniel K., U.S. Senator from Hawaii..............    37
    Akau, Nanea..................................................    75
    Akina, Charman J. (with attachments).........................    79
    Apoliona, Haunani, trustee, Office of Hawaiian Affairs.......   139
    DeCambra, Ho'oipo............................................    42
    Durand, Momi.................................................    77
    Earle, Erik Kaimiola.........................................   141
    Fallin, Lynn (with attachments)..............................   116
    Fitzgerald, Mike (with attachments)..........................    92
    Goo, Sherlyn Franklin, executive director, Institute for 
      Native Pacific Education and Culture.......................   130
    Jenkins, Leialoha............................................    72
    Johnson, William.............................................    46
    Kenui, Cynthia K.............................................   128
    Matsuoka, Lori...............................................    70
    McCubbin, Hamilton I. (with attachments).....................    48
    McKenzie, Tara Lulani, president and CEO, ALU LIKE, Inc......   133
    Midkiff, Robert, president, Board of Directors, Good 
      Beginnings Alliance........................................   135
    Morris, Joanne Sebastian, program director, Pacific Resources 
      for Education and Learning.................................   125
    Oneha, Mary Frances..........................................    37
    Rawlins, Namaka, director, 'Aha Punana Leo...................   143
    Robins, Kalau'ihilani........................................    44
    Silva, Brandy, parent........................................    38
    Thompson, Myron K............................................    40
    Wilson, William H., Ka Haka 'Ula O Ke'elikolani College of 
      Hawaiian Language, University of Hawai'i at Hilo...........    39
Additional material submitted for the record:
    Profile of Young Hawaiian Children...........................   147

Note: Other material submitted for the record are retained in 
  committee files.








    NATIVE HAWAIIAN EARLY CHILDHOOD EDUCATION, DEVELOPMENT AND CARE

                              ----------                              


                         FRIDAY, APRIL 5, 2002


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                       Honolulu, HI
    The committee met, pursuant to notice, at 1 p.m. at the 
Disabled American Veterans Center, Honolulu, HI, Hon. Daniel K. 
Inouye (chairman of the committee) presiding.
    Present: Senators Inouye and Akaka.
    Mr. Thompson. I'm going to read the pule that my father has 
been using for the last 20 years.
    Let us call forth the supreme powers of our individual 
spiritual beliefs to join us. For those of us who have them, 
call forth our Aumakua, our guardian angels, to be with us 
today. Now reach inside ourselves and touch the spirits of 
family members and special friends who have assisted us to be 
people who care, want to share, and dare to achieve impossible 
dreams. Let us gather our spiritual strengths so we can aloha 
them, thank them for their continued encouragement, guidance 
and protection as we proceed through life.
    Now for our supreme powers' blessings upon this gathering. 
In the words of my grandmother, in the language of comfort, na 
ke akua e hoopo maikai I'a oukou. Aloha, aloha pumehana.

 STATEMENT OF HON. DANIEL K. INOUYE, U.S. SENATOR FROM HAWAII, 
             CHAIRMAN, COMMITTEE ON INDIAN AFFAIRS

    The Chairman. Thank you very much. The Senate Committee on 
Indian Affairs meets today to receive testimony on early 
childhood education. Our dear friend and colleague Pinky 
Thompson had a vision. His dream was that all the children in 
Hawaii would be afforded the very best start in life, and 
studies inform us that the most important determinant of one's 
potential in life is predicated on the growth and development 
of the brain, which begins, as we all know, well before birth.
    But what may be less well known is how important it is that 
from the earliest time of life, babies and children are 
surrounded by stimulation. It may be as simple as making 
certain that a baby is active, that the baby receives the 
attention and care of his or her parents and others in the 
family. The simple act of playing with a baby may be more 
important to his future than any of us have previously known. 
Studies indicate that children who are in institutional care 
for one reason or another and who may lie in their cribs for 
hours without any attention from another human being show 
permanent and long lasting effects on their subsequent ability 
to learn and respond to the world around them.
    So today we will hear from those in our community who have 
studied these matters and are working with Hawaii's keiki to 
assure that they have a healthy and promising start in life. 
This will be the first in a series of hearings on these 
matters. We will follow with hearings in Washington. But today 
we dedicated this first step to our beloved friend, Pinky 
Thompson. Pinky we thank you for your vision, and for the 
values that you so often expressed. You will serve as our guide 
as we walk this path.
    And may I now call upon my distinguished and beloved 
colleague, Senator Akaka.

  STATEMENT OF HON. DANIEL K. AKAKA, U.S. SENATOR FROM HAWAII

    Senator Akaka. Thank you very much, Mr. Chairman. I want to 
thank you very much for holding this hearing today to gather 
information that will help the Federal Government to assist in 
the efforts of public and private educators, health care 
providers and families who provide the support and nurturing 
necessary to help children in the critical years of child 
development. It is very important to all of us.
    And Mr. Chairman, I'm going to ask that I be allowed to 
make a brief statement and that my full statement be included 
in the record.
    The Chairman. Without objection, so ordered.
    Senator Akaka. I'm pleased to participate in this 
afternoon's hearing on Native Hawaiian Early Childhood 
Education, Development and Care. I join you in paying tribute 
to our dear friend, my brother, Pinky. Pinky Thompson devoted 
much of his life to working to build a better future for Native 
Hawaiians. It is with great pleasure that I join your efforts, 
Mr. Chairman, and all of you here gathered to make Pinky's 
vision for Native Hawaiian children a reality.
    As a former educator, I believe there is no greater tool 
for success than the quality education which we can provide to 
our children. Education in Hawaii takes on greater significance 
as we consider the continuing need to preserve our culture, our 
language and our heritage in a rapidly changing and 
technologically based environment. Innovative programs that 
encourage family and community participation to preserve 
culture and increase Native Hawaiian access to quality 
educational opportunities play a significant role in ensuring a 
bright future for all of us.
    I am pleased to see the success of parent participation in 
preschools such as Keiki O Ka `Aina, and to hear from parent 
participants about the value of this important program. I am 
equally impressed with the Pulama I Na Keiki program which 
focuses on prenatal care. I am encouraged to learn of the 
progressive actions taken by the Kamehameha Schools to meet 
more of the educational needs of Hawaiian families and 
children, as the Kamehameha schools increases outreach, public-
private partnerships and collaboration with communities as well 
as other Native Hawaiian agencies and organizations to increase 
educational opportunities and access for our people.
    I am interested in hearing more on how the mana'o is 
developed by Ho'owaiwai Na Kamalii and how its guiding 
principles will be implemented. I look forward to working with 
the State of Hawaii to fulfill its goal that all of Hawaii's 
children will be safe, healthy and ready to succeed.
    Again, I thank you, Mr. Chairman, for bringing us all 
together on the vision of our great brother and friend, Pinky 
Thompson. Thank you very much.
    [Prepared statement of Senator Akaka appears in appendix.]
    The Chairman. Thank you very much, Senator.
    Our first panel consists of Myron K. Thompson and Hamilton 
I. McCubbin, the chief executive officer of The Kamehameha 
Schools.
    Mr. Thompson.

                 STATEMENT OF MYRON K. THOMPSON

    Mr. Thompson. Thank you, Chairman, Senator Akaka, friends 
and family.
    My name is Myron K. Thompson. I'm the eldest son of Pinky 
Thompson, and the reason I'm here today is that my father, 
unfortunately for all of us, recently passed away. I have been 
asked to share my father's vision for the need for early 
childhood education and care of Hawaiian children.
    I'm in a very unique position in that I knew Pinky Thompson 
from a number of different perspectives. The most obvious one 
was that he, of course, was my father. But we interacted and 
related on community and social issues constantly. I spent 
countless hours with him talking about many subjects.
    But the one that came up the most is the one that we will 
be addressing today, the need for early childhood education and 
care. As most of you know, Dad was a courageous leader. He did 
not always know the path to the desired end, but he never 
wavered from his basic intention. That was that he wanted to 
improve the condition of the Hawaiian people and all people of 
Hawaii. He knew that Hawaiians were testing poorly in schools. 
He knew that our prisons had a higher percentage of Hawaiians 
in comparison, and he knew that there was too much drug and 
alcohol abuse. And he knew that our race had lost its pride and 
self-esteem.
    So his vision, which formed early in his life, was to do 
whatever he could to improve the Hawaiian race culturally, 
economically, educationally and spiritually. It was also his 
contention that the ancient Hawaiians had a lot to teach us and 
much of that was lost over time. As we gather here today, it is 
this same basic drive that continues. Pinky Thompson was a 
passionate man. He believed strongly that the area to address, 
the area that would produce the most lasting and long term 
results, is the area of early childhood education and care. He 
believed that if you address children early on, provide certain 
basic needs, they will respond positively, and you have a 
chance of breaking the dwindling spiral of the culture and the 
race.
    The other major point that he constantly made was that we 
need to create an environment that is safe and healthy. Because 
such an environment creates the proper elements necessary for 
children to grow physically, emotionally and spiritually. A 
safe and healthy Hawaii became his personal mission statement. 
Coincidentally, it became the mission statement of our family 
also.
    Today there will be both written and oral testimony from 
many people that substantiates the need for further help in 
accomplishing that vision. The ongoing testimony will make it 
abundantly clear that there is much more to be done. It is my 
own personal conviction that Dad's vision is vitally important, 
and Dad's vision does need to be carried forward. For the sake 
of Hawaiians and all mankind, we all need to take more 
responsibility for the problems we face and do whatever we can 
to seek out and find workable, effective solutions that provide 
a safe and healthy Hawaii, Nation and world.
    I stand here in front of our Congressional delegation, 
friends and many others with similar hopes and dreams, and say 
that in honor of my father's courage and dedication towards 
improving Hawaii and the world, let us never stop on this 
journey until we get the job done, and to restore our place in 
our world as proud, courageous, caring people equipped with the 
tools necessary to flourish and prosper in our complex society.
    Mahalo.
    [Prepared statement of Mr. Thompson appears in appendix.]
    The Chairman. Thank you very much, Mr. Thompson.
    Now may I call upon Dr. McCubbin.

STATEMENT OF HAMILTON I. McCUBBIN, CHIEF EXECUTIVE OFFICER, THE 
                       KAMEHAMEHA SCHOOLS

    Mr. McCubbin. Aloha, kakoa. Good afternoon, Chairman Inouye 
and Senator Akaka, honorable members of the U.S. Senate.
    My name is Hamilton McCubbin, I'm the chief executive 
officer of the Kamehameha Schools. I appreciate this 
opportunity to testify before you as an advocate for vastly 
improving the school readiness of children of Hawaiian 
ancestry.
    All children, like Pinky, have dreams. All children want to 
please. There are little heroes just waiting to succeed. But 
success is a process requiring care and support. Research tell 
us, as already noted, that if a child is safe, healthy and 
supported by his or her family and community, that the child 
will not only confidently begin the transition from the home 
setting to structured learning environments, but will also 
likely grow up to be a contributing member of our society.
    In Hawaii, our State legislature recognized this importance 
by defining school readiness as young children that are ready 
to have successful learning experiences in school when there is 
a positive interaction among the children's developmental 
characteristics, school practices and family and community 
support. In other words, school readiness requires the four 
domains in the child's life experience to interact in positive, 
healthy and reinforcing ways.
    This presumes that a child is in a state of physical, 
social and emotional well-being. The child's family assumes 
responsibility for providing the resources a child needs to 
have a healthy and emotionally supportive environment. The 
child's school has a plan that proactively engages the child's 
family in providing a systematic transition for the child from 
the home or early education program into kindergarten and 
school. And finally, the child and family is supported by a 
nourishing community willing to keep children safe, adequately 
nourished and to ensure their physical well-being.
    There are cultural and at-risk domains. Those are 
universals of school readiness for all children and for the 
Hawaiian child, at least two additional domain realities must 
be added to the equation. First, Hawaiians, as other indigenous 
cultures, often learn differently from children of mainstream 
western society and cultures. And school readiness for the 
Hawaiian child requires a cultural overlay based on the very 
foundation of the Hawaiian culture and learning the family.
    Hawaiians' extended family system is the traditional source 
of learning. It is intimate, direct, nurturing, culturally 
grounded, and a very effective learning tool. So as we seek a 
safe and healthy and school-ready Hawaiian child, it becomes 
our kuleana as education providers, Federal, State, and local 
government, community, family and educators, to support school 
readiness within the context of a culture.
    Second, sadly, our Hawaiian children represent a 
disproportionately large at-risk segment of our society. 
Poverty, substance abuse, maternal child health risks levels 
among Hawaiians are considerably higher than other ethnic 
groups in this State. There are literally too many risk factors 
besetting the Hawaiian child and impeding school readiness to 
be cited in any oral testimony. Additional data are attached in 
the record.
    But among them, it should be noted that Hawaiians have the 
highest teen birth rates. Hawaiian children represent nearly 
one-half of 47 percent of all children affected by asthma in 
Hawaii. Of particular concern is the lack of access to critical 
health care for an estimated 10,978 children in the State 
without health insurance, 28 percent of whom are Hawaiians.
    Hawaiian children have the highest exposure, or 51.8 
percent, to family use of alcohol, tobacco or other drugs than 
the statewide average of 45 percent. Support is absolutely 
essential. In the State of Hawaii, Hawaiian people, our host 
culture, also represent a disproportionately large segment of 
households living at or below the poverty level.
    At Kamehameha, for example, more than 70 percent of our 
pre-kindergarten students receive financial aid. More than 60 
percent of our K-12 students receive financial aid. Education 
without question is the answer and the tool that is often the 
salvation. Hawaiian children benefit most when educational 
opportunity is driven by and built upon a sensitivity to the 
learning and cultural strengths inherent in the Hawaiian 
community.
    At Kamehameha, we are partnering with public and private 
agencies because we must pursue the public-private partnerships 
in order to attempt to meet the needs. We are developing early 
childhood scholarships for financially needy children of 
Hawaiian ancestry living in regions where existing preschool or 
Head Start programs are not available. Kamehameha, in 
collaboration with others, is initiating family education 
services programs to advance educational service programs 
including child development, family and community workshops, 
home visits, family training and counseling.
    It all helps, indeed, the Federal Government and the 
Federal dollars, when combined with dedicated partnering 
initiatives at work today in the State of Hawaii, will assist 
our State to build the community capacity necessary to address 
the desperate need for culturally sensitive early education 
programs and care for the children of Hawaiian ancestry.
    All children have dreams. Working together to increase 
school readiness among children of Hawaiian ancestry will not 
only make them an equal part of our national education agenda, 
it will help provide the safe and healthy environment so that a 
child's school readiness might become the key to making the 
child's dream come true.
    Mahalo for the opportunity to testify before you.
    [Prepared statement of Mr. McCubbin appears in appendix.]
    The Chairman. Thank you very much, Dr. McCubbin.
    Mr. Thompson, I believe all of us here agree that early 
childhood education means pre-kindergarten. Do you have any 
age? Does it begin in the womb or at age 2 or 3?
    Mr. Thompson. I'm only speaking from my Dad's perspective, 
but he believed that the crucial area was zero through five, 
actually from conception on is when the care needed to be 
taken.
    The Chairman. So it begins at the earliest stage?
    Mr. Thompson. Absolutely.
    The Chairman. Therefore, the mother's health may be very 
important.
    Mr. Thompson. Absolutely.
    The Chairman. So it is not just one effort, but a multiple 
effort.
    Mr. Thompson. Exactly. And you know, I'm only speaking from 
memory of what he talked about, but he would reiterate that if 
you were to attempt to reverse the downward trend of a 
particular race as ours is, or has been, you need to start 
somewhere. He basically thought the idea would be to take the 
ages from 0 to 5, concentrate on that and go from there. 
Because the future will be built on that.
    Of course, in order to do that, you have to help the new 
mothers in the same arena so that they can take care of the 
kids properly, so they can create the environment necessary for 
the kids to grow and expand.
    The Chairman. Dr. McCubbin, you speak of children at risk. 
Are there any Federal programs that you are aware of at this 
moment that can help you in your school readiness concept?
    Mr. McCubbin. Senator, absolutely there are existing 
programs. But maybe not at the level that is necessary. Take 
for example the Keiki O Ka 'Aina program that really attempts 
to stimulate children at a very early age as a complement to 
special education programs, or to our preschool program. This 
is an important component.
    But when you look at school readiness, a concept that says 
there are four, in our case six areas in which we need to 
address, there are some programs but not in any real integrated 
forum. It's really nice that we can have an opportunity to 
listen to different initiatives here, for we have not had much 
opportunity to bring all of these units together. We still have 
a ways to go.
    The Chairman. What role can the Federal Government play?
    Mr. McCubbin. If I can speak from two vantage points, one 
as Kamehameha and the other from a social scientists and 
developmental perspective, the role of the Federal Government 
falls along three lines. One, obviously at the policy level, a 
national commitment, much as reflected in your presence here 
that early childhood is not just an added stage in development, 
but a critical stage, as Pinky has always emphasized.
    So the emphasizing at the national level this kind of 
policy allows us at the State and private sector level to use 
that as a vehicle to support and reinforce those particular 
objectives.
    Second, obviously a lot of us have a strong commitment, 
while Kamehameha schools is not in the Federal funding 
business, there's no question we are committed to helping 
communities develop the capacity to develop their own programs 
where Federal funding makes a significant different in what we 
can do. As I already mentioned on Keiki O Ka 'Aina, but there 
are many other programs that are very dependent on Federal 
support and have made tremendous differences.
    The third is the promulgation of leaders throughout the 
entire State. By emphasizing the importance of the role of 
community in developing and responding to the needs of the 
families in their communities, that's also part of the Federal 
initiative would cultivate not only individual programs, but 
community capacity.
    The Chairman. As you may be aware, there was a time not too 
long ago when Kamehameha Schools were involved in a federally 
supported keiki program that actively involved parents. Was 
that a success?
    Mr. McCubbin. Involving the parents was not only a success, 
and we apologize for withdrawing from that initiative, but 
we're pleased that there are other programs like Alu Like and 
Keiki O Ka 'Aina to maintain that kind of commitment. Without a 
doubt, the nurturing environment of the family, and let me 
define family broadly, not just parents, we have kupunas, we 
have grandparents, we have aunties and uncles, we have hanai 
grandparents, aunties and uncles that can make a lot of 
difference. So it's the adult family world that we need to 
reinforce and support.
    One final note, if you look at the current research by 
Emmie Werner, conducted on the Island of Kauai, where the kids 
were definitely at risk over time, it was her finding that it 
was the grandparents and the families and the parents that 
really reduced the risks, no matter what they were, for giving 
the kids an early start and opportunity to develop.
    The Chairman. Thank you. Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman.
    Myron, I was touched by your testimony, and I applaud your 
family's mission statement for a safe and healthy Hawaii. I 
appreciate your taking the time to explain your father's 
vision, and I look upon him, as you mentioned, as a courageous 
person and achiever, one who worked at something until it was 
finished. That was his style. So I have a lot of love for you 
and the family, and I look forward to working with you and the 
family to improve early childhood education, development and 
care for Native Hawaiians. Please give my love and aloha to 
your mom and family.
    Mr. Thompson. I'll do that.
    Senator Akaka. Dr. McCubbin, your testimony discusses the 
concept of Head Start programs. What I liked about what you 
mentioned, because it's true, is the lack of cultural 
contingencies, that are not usually in educational programs in 
Hawaii. You mentioned the concept of malama as it pertains to 
preference by many Hawaiian families, to keep the children 
close to home. And I want to also take the time to commend you 
and congratulate you on what you're doing as CEO of the 
Kamehameha Schools.
    My question to you is, how is Kamehameha Schools, as it 
seeks to provide early childhood education and programs, 
addressing the needs of the Native Hawaiian families?
    Mr. McCubbin. First of all, mahalo for the comments and 
affirmation. As you know, our trustees are very committed to 
early childhood education, partly because of the legacy of 
Pinky and Pinky's family. So it's a pleasure as well as our 
honor to move ahead with this.
    I'd like to say that Kamehameha Schools has built in the 
parenting component and the family component in the most 
comprehensive way. But we're not there yet. Actually in the era 
before 1995, when the Kamehameha Elementary Education Program 
[KEEP] and our traveling preschools were prominent, Kamehameha 
had a genuine commitment from birth all the way through, and 
had a very key role in facilitating the role of the families. 
That diminished, as you know, in 1995, what we oftentimes refer 
to internally as an internal mahele of some form.
    But given that, the trustees are current, including, well, 
the trustees are current, have made a commitment that we really 
must emphasize parents and family in our programs. That's why 
we're looking for, I mentioned Keiki O Ka 'Aina several times 
primarily because we're quite attracted to that and Family 
Service America and their initiatives, trying to figure out not 
so that we build our own, but to build on what already is in 
existence and what programs we can link to.
    There's no question within the next year we can expect a 
flourishing of family focused programming. But I can't say that 
we are there.
    Senator Akaka. I'm glad you mentioned in your testimony the 
extended family. Because in Hawaii, that's part of our legacy, 
part of our culture, our history and culture. We often talk 
about the immediate parents. But I certainly am interested in 
using extended family in this way, in educating the Hawaiian 
child. I'm glad also that you mentioned the cultural strength 
of the Hawaiian child that can be brought to education.
    My final question is, what kinds of family education 
services programs are being developed by the Kamehameha 
Schools?
    Mr. McCubbin. As I already mentioned, we are really looking 
at partnering with existing programs. For example, there are 
several prominent federally-funded programs that are limited by 
their own funds. Kamehameha Schools is anxious to replicate, if 
not expand those.
    But there are two other tracks the Kamehameha Schools are 
interested in. One is by working more directly with public 
schools. While Kamehameha Schools has traditionally built its 
own preschools and extended its own programs, we're convinced 
that if we're going to reach more and more Native Hawaiians 
than the 5 to 7 percent that we do now, we really need to 
partner with the public schools in a very constructive way.
    In this sense, actually the Governor just signed the bill 
yesterday that permits Kamehameha Schools to partner with the 
DOE schools in a very constructive way, as I mentioned. We can 
expect the family component of these programs to be expanded. 
But it also means the redefinition of the family to be much 
more inclusive than the definition we have.
    The second strategy is to develop specific family life 
education programs designed to nurture families and their 
ability to recover, when we talk about poverty, at-risk kids 
and school readiness from a family perspective. We're looking 
for different strategies in which we can enhance the well-being 
of families in order that children may benefit. But these will 
be traditional family life education programs.
    Senator Akaka. Mahalo for your manao. Thank you.
    The Chairman. Thank you very much.
    Our next panel consists of the following: Ho'oipo DeCambra; 
Ms. Brandy Silva, parent of a keiki in Pulama I Na Keiki; 
William Johnson, of Keiki Steps Play Morning; and Kalau'ihilani 
Robins, Assistant Director of Punana Leo O Kawaiaha'o, 
accompanied by her daughter, Anuhea Robins.
    May I first recognize Ms. Decambra.

                 STATEMENT OF HO'OIPO DeCAMBRA

    Ms. DeCambra. Since I handed in my testimony, Senator 
Inouye, on the first, I have expanded a whole page. My thoughts 
have gone on and on. So I'm just going to capture in about 3 
minutes maybe the salient points. Thank you for the honor and 
invitation to testify.
    Papakolea. What I got in early childhood was enough help to 
get me through life. The entire island was my learning 
laboratory. Mother took me to a healer in Makiki at my birth. I 
watched as only a little child could in awe of the 
demonstrations and acts of Hawaiian ritual as mother paid tribe 
to Pele, the volcano goddess, and Ke Anuenue, the rainbow 
goddess. While my mother had to deal with the pressures of 
providing a house over our heads and food on the table, she was 
a continuing presence in my life. She knew what a child needed, 
traditional touching as in lomi lomi, stories, ritual, 
connection to the land. She kept the families together, both 
emotionally, spiritually and economically.
    Wai'anae. My two children have grown up in a very different 
society. Although we were able to raise them by the ocean with 
much of the same values and traditions, many environmental 
influences were downright evil. During the 1980's, I saw 
illegal drugs invading my community. And as we witnessed 
tragedy in our own families, as you can read in my testimony, 
we also did research. What we found in our community was that 
there were extremely high rates of reported cases of infants 
prenatally exposed to this drug called ice and other drugs.
    Sacred places. My testimony is titled Sacred Places in Our 
Beloved Community. I borrowed this from a friend, Puanani 
Burgess, who has described the need for us to create these 
sacred places. Hawaiian children have a great need to grow up 
within these sacred circles. I wish to recommend to the 
committee that you seek input in your work ahead from adults 
who are in recovery from alcohol and drug abuse, who are at 
least perhaps 3, 5 years in recovery, include them in the 
discussion of how to develop this fervor of support for early 
childhood development.
    Include early childhood educators. And I want us to have 
them be culturally sensitive and however you define and work to 
identify that these early educators on your planning 
development committee are culturally sensitive, I will be 
satisfied. Grandparents and parents are very important in this 
deliberation, as are teachers who are dealing with this trauma 
in our community of children and their high-risk behaviors and 
other issues. The business community, health workers that 
interact with these families, the mental health worker, the 
nurse practitioner that knows them intimately, the doctors, 
CPS, a very critical voice that we need to hear from. And 
community college faculty and non-profit organizations in the 
community that are doing direct service to provide care to 
children.
    I believe our communities have always been very resilient, 
and that they are able to develop organizationally and have as 
the need has arisen in our communities. I believe in Wai'anae, 
of course I would brag, from Wai'anae, that we have the 
tremendous amount of organizational and human resources 
available to raise a child. And I believe that we are able, 
with proper development of a larger plan around early childhood 
development, that we are able to engage with you in discerning 
how best to do that on the Wai'anae coast.
    Currently, there is a large movement toward revitalization 
of Hawaiian language by educating Hawaiian children in Hawaiian 
language immersion schools. I believe that's very important, 
because the Hawaiian culture and language, as we have heard, 
should not be kept marginalized and on the side. If we really 
want change in our communities, then they need to be at the 
forefront of our efforts and support in our State.
    I believe we need to see statewide adoption of Hawaiian-
English bilingualism, and that we need to see more effort in 
supporting teachers to get training in Hawaiian studies, and 
that time spent learning what is important to the children who 
come from this ancient culture in our island. I believe without 
such change that teacher education our children will continue 
to be seen as lacking something, rather than as the future of 
our people, rich in tradition, and with gifts that are in need 
of encouragement. Early childhood education must be seen as 
taking competent children and helping them blossom in all ways. 
Anything less is theft.
    We must build child care centers. I don't believe children 
should be in basements or in temporary quarters. They need 
light, airy, beautiful places for our children. They will 
respond well to such places. They will know that they have our 
respect, and will want to continue to earn it and to 
investigate knowledge and to make art and to articulate their 
ideas. We must prize the children and then they will take care 
of the future for us.
    Thank you, Senator.
    [Prepared statement of Ms. DeCambra appears in appendix.]
    The Chairman. I thank you very much, Ms. DeCambra.
    And now may I call on Ms. Brandy Silva.

                   STATEMENT OF BRANDY SILVA

    Ms. Silva. Good afternoon Chairman Inouye, Senator Akaka. 
My name is Brandy Silva and I'm a parent of a 5-year old son 
and a 5-month old daughter.
    When I was pregnant with my daughter, I joined the program 
Pulama I Na Keiki. I'm here today to testify why Pulama I Na 
Keiki helped me to overcome challenges as a parent and what 
benefits I'm receiving as an active participant in the program.
    Even thought I already had a child before joining Pulaama I 
Na Keiki, I felt I could profit from this program, because as a 
parent, it's a learning process. And there is always going to 
be more to learn. We can never know enough and we never have 
all the answers.
    When I found out that I was going to have another child, I 
began to think about being the parent of two children. Would I 
have what it took to juggle attention between the children? My 
child was already a handful and it had been years since I 
tended to a baby, almost 5 years.
    I joined Pulama I Na Keiki and it helped to ease my 
anxieties. This program has helped me as far as labor, I had 
questions about labor. I delivered before, although I had 
experienced many pains and aches that I didn't experience in my 
previous pregnancy. My parent educator had come and we had 
discussed labor signs, hospital readiness. Also prior to 
delivery, we had gone over car safety issues. We learned about 
care.
    These were all things I had done before, but time had 
passed and I wasn't sure if I could do it again. With their 
support and encouragement, and the knowledge and information 
they were handing to me, I was able to do it.
    My parent educator meets with me once a week. She is also 
there to help me when I have questions about things we haven't 
covered. There were a couple visits where I had requested some 
information she brought me, some of it was on baby massage. I 
have heard through others that touching and interacting with 
the baby by baby massage stimulates them and helps them to grow 
better and helps them result better. She had brought me this 
information which helped.
    Another good aspect of the program is that we do projects, 
we create homemade toys that help to enhance the development of 
the children, how they interact in Hawaiian culture and what it 
means in Hawaiian society.
    Not only has this program helped me to care properly for my 
children, but it's helping me to achieve my goal of being an 
active parent in developing my children's skills, so one day 
they will be able to achieve their greatest goals.
    For all these reasons, I am grateful to be an active 
participant in Pulama I Na Keiki. And I thank you for giving me 
this opportunity to testify.
    [Prepared statement of Ms. Silva appears in appendix.]
    The Chairman. I thank you very much, Ms. Silva.
    Now may I call upon William Johnson.

                  STATEMENT OF WILLIAM JOHNSON

    Mr. Johnson. My name is William Johnson. My daughter Berlin 
attends Keiki Steps Play Morning at Pilila'au Park in Wai'anae. 
Berlin just turned 5 years old in February and will be entering 
kindergarten in the fall. Just about every day she would beg us 
to send her to school. But we could not afford preschool and 
don't qualify for a lot of other programs. So Keiki Steps/
Sunshine Play Mornings are perfect for families like ours.
    At Play Mornings I get to spend quality time with my 
daughter and she gets to socialize with other children. I also 
like to play with the other children. I enjoy the guest 
speakers, field trips and interesting educational activities 
provided there.
    My sister heard about the program and told me about it. We 
have told several of our friends. Unfortunately, it was sad to 
know that our play group is getting too full and there was a 
limit on the number of kids who can attend. I was also 
surprised to hear Play Mornings are not available in all 
communities. I think it would be helpful if there was a way to 
coordinate all efforts to have programs like ours in all 
Hawaiian communities.
    So I am here on behalf of other parents in situations like 
my own and from our Wai'anae community in hopes that my 
testimony will continue to help fund such excellent and school 
readiness programs to ours and all Hawaiian communities.
    Thank you for letting me share my story with you.
    [Prepared statement of Mr. Johnson appears in appendix.]
    The Chairman. Thank you very much, Mr. Johnson.
    Now may I call on Ms. Robins.

               STATEMENT OF KALAU'IHILANI ROBINS

    Ms. Kalau'ihilani Robins. Aloha mai kakou. Good afternoon, 
honorable gentlemen. I would actually start with my daughter, 
Anuhea. She would like to express some thoughts to you.
    The Chairman. Anuhea, we're going to listen to you now.
    Ms. Anuhea Robins. Aloha nui kakou [phrase in native 
tongue].
    The Chairman. The obvious love that exists between mother 
and daughter is most appropriate at this moment. That alone is 
sufficient testimony. Ms. Robins?
    Ms. Kalau'ihilani Robins. My name is Kalau'ihilani Robins. 
I'm a proud parent of three children, ages 8, 4, and 2. My 
oldest daughter Pu'uwai attended Punanao Leo O Kawaiaha'o. My 4 
year old daughter currently attends there and my 2 year old son 
will get to be there this January.
    I'm here to talk about the challenges a parent faces when 
seeking out early childhood education and how I have benefitted 
by it. While I was pregnant with my oldest child, I began 
research for a preschool that I could send my daughter to. 
Punana Leo's program appealed to me because I felt it was 
important for my family to learn the Hawaiian language, its 
cultures and values, something I was taught, but not enough to 
carry it out to my daughter. This was a place I could do that.
    I had already heard benefits that children have received 
with learning more than one language as part of early childhood 
education. When my daughter Pu'uwai was 2\1/2\ years old, I 
applied at Punana Leo O Kawaiaha'o and was told immediately 
that spaces were limited, so not to be discouraged if my 
daughter did not get in. Through the application process and 
the interviews, we were fortunately one of the 9 families 
chosen out of 34 applicants that year. After my first daughter 
attended there, and all the experiences we had shared, I knew 
it was important for all of my children to attend Punana Leo.
    I now recognize the benefits that my oldest daughter 
received going to Punana Leo, the learning skills, gave her a 
foundation for her reading skills. I was quite worried about 
her learning English. And at the second grade level, she reads 
at a third and fourth grade level. That was just wonderful for 
my family.
    She also excels really well in other subjects, as well. 
Punana Leo has given her a sense of self awareness. She knows 
where she comes from. I believe that the Punana Leo early 
childhood education has benefitted her abilities and her self-
awareness up to today. This past October, I decided to leave my 
previous employer as a bank supervisor to become an employee of 
Punana Leo, because the passion in me was so great for the 
language.
    Not until I became an employee did I recognize how lucky 
our family was to have been chosen to be part of the Punana Leo 
program. We have just completed applications to be processed at 
the school for the 2002-2003 school year. We received an 
estimated 45 applications. But because of the lack of funds and 
spaces we were only able to accept 11 families. It's such a sad 
thing to say that a lack of funds prevents us from providing 
this valuable service to everyone. So it's a very heart 
wrenching, stressful process. I have studied almost every 
interview and read every application. It is hard to decide 
which families possess the qualities and traits that fit our 
philosophy and mission. I feel that all of these families have 
the right to receive our services. How do you answer a parent 
wanting to know why their keiki will not get accepted?
    Punana Leo is the only early childhood education program 
that offers Hawaiian language immersion. I do not feel I have 
the right to choose who is provided services and who is not. I 
feel there should be a Punana Leo in every community with the 
ability to service everybody wanting to be a part of this 
program. I feel very honored and privileged to be a part of the 
Hawaiian language movement at Punana Leo as a parent and an 
employee. Punana Leo has been an important part of my family 
and has served as not only a preschool for my children but also 
a way of life.
    I strongly do not believe that Punana Leo is for every 
family, but I do believe that all families should have a 
program easily accessible in their community that fits that 
family's needs and is affordable.
    As the professionals have spoken previously and will be 
speaking after me, have stated that the early years of a 
child's life is the most crucial time. We as a community should 
embrace that fact and provide all the assistance for our 
children. I would like to thank you both, the men and women of 
the Congressional delegation, for allowing us to share our 
experiences and thoughts here today.
    Mahalo.
    [Prepared statement of Ms. Kalau'ihilani Robins appears in 
appendix.]
    The Chairman. Thank you very much, Ms. Robins. I must tell 
you that there aren't enough mothers who speak with passion 
about their children. So I thank you.
    If I may now ask Ms. DeCambra, according to your testimony, 
your life at Papakolea was a very happy one.
    Ms. DeCambra. Yes.
    The Chairman. Would you say that the life of Hawaiian 
children today is not happy?
    Ms. DeCambra. I'd say there's a large number of Hawaiian 
children, the term people use is at-risk. I still think that 
communities are resilient. With the right kind of planning and 
structural support, we can address those ills, those 
weaknesses. So I think we're able to address those problems and 
raise them so that they become assets in our community, rather 
than deficits, as you've heard in ways that these young people 
have testified.
    The Chairman. So you believe that the program we have in 
place could be enhanced and expanded?
    Ms. DeCambra. Yes; I believe the programs that are in place 
are life saving. Definitely. I believe the capacity to increase 
that life saving effort needs to be there in any way possible 
that you have the power to help us with.
    The Chairman. Thank you.
    Ms. Silva, how are your children today?
    Ms. Silva. They're okay. You mean like right there at this 
moment? [Laughter.]
    The Chairman. Who told you about the Pulama I Na Keiki 
program?
    Ms. Silva. I have a friend who joined and told me all she 
was learning with the program, and said that it may be 
something I would be interested in. So I called up the director 
of the unit that I'm in and I had an interview and I was 
accepted. So we started our visits.
    The Chairman. And you say it has been very helpful to you?
    Ms. Silva. Yes.
    The Chairman. Would you like to see it continue?
    Ms. Silva. Yes; we also have, because of limited funding, 
they can only accept parents with children up to 3 years old. 
We start prenatally. But even though I was a parent with a 
child who was already 5, with that 5 years of experience, I 
still didn't think I had enough to raise another child.
    With this program, I've been able to build that confidence 
and strength into myself to know that I have a resource I can 
turn to that's going to give me the knowledge so I can give my 
children opportunities for the future. Just being able to 
relate to them better, being able to make these toys. We even 
took these charts, that checks on your child's status, we do 
activities that help to improve my child's development in the 
six major skills of development.
    The Chairman. We'll do our best to see that other children 
are as happy as yours.
    Mr. Johnson, it may surprise you that United States 
Senators are also parents. [Laughter.]
    The Chairman. My son went to the public schools in 
Maryland. I attended PTA meetings, I missed just two of them. I 
was chaperone at dances and I did my very best to live up to my 
responsibilities as a father. I am happy to know that you are 
doing the same thing, going on field trips and such. What sort 
of field trips were these?
    Mr. Johnson. We just had a field trip yesterday to a 
discovery center. That was excellent for the kids and for me, 
it was the first time I've been there.
    The Chairman. I bet you learned just as much as your child.
    Mr. Johnson. Yes, I did.
    The Chairman. That's the beauty of this type of program, 
where parents get involved with their children. I think they 
learn just as much as the kids.
    Mr. Johnson. Yes.
    The Chairman. So keep it up.
    Ms. Robins, I commend you for being passionate in your work 
and your love for children. As I said earlier, there are not 
enough mothers who are that passionate. If there were, we 
wouldn't have any problems. So just keep it up. Do not be 
embarrassed when tears fall. It is a good sign.
    How is your eldest daughter doing now?
    Ms. Kalau'ihilani Robins. Very well.
    The Chairman. What grade is she in?
    Ms. Kalau'ihilani Robins. Second grade.
    The Chairman. What is her learning level, her reading 
level?
    Ms. Kalau'ihilani Robins. Her reading level is about fourth 
grade.
    The Chairman. That's pretty good. And you credit that to 
Punana Leo?
    Ms. Kalau'ihilani Robins. It has given her a basis of 
learning skills that will continue as other [Native word] to do 
and excel and enjoy what she's doing.
    The Chairman. What do you do in Punana Leo?
    Ms. Kalau'ihilani Robins. I'm an assistant director there.
    The Chairman. Well, keep it up. We'll do whatever we can.
    Ms. Kalau'ihilani Robins. I'm so happy to hear that.
    The Chairman. Thank you.
    Senator Akaka?
    Senator Akaka. Thank you very much, Mr. Chairman. It's good 
to hear from what we call the grass roots.
    Ms. DeCambra, I was interested in your comments about the 
program there in Wai'anae and your suggestion that we should 
have a comprehensive approach in developing a successful model 
for early childhood education and care for Native Hawaiians. I 
know that you have worked in the community and you know the 
community and the capacity of the community as well. I like 
your mention of at-risk.
    I guess what we call that in a different way is, we call 
that challenges that children face today. There's no doubt that 
the challenges that you have in Wai'anae now are so great, so 
critical. When you talked about the drug babies, this is 
something that will affect the whole community and whole State, 
because we're going to have to take care of them. I agree with 
your intention to try to use the community to help meet these 
challenges that face Native Hawaiian children and families.
    I know you've been associated with different programs. 
Specifically, let me ask you, what role do you see for the 
Federal Government, if any, to play in this process?
    Ms. DeCambra. As we heard earlier, I think at the policy 
level there needs to be a commitment to early childhood 
development. I think we heard the parties refer to zero to 
five. That means when in the womb, I think the adult parent 
needs the support of helping them through that prenatal care. I 
think at a policy level, making a commitment and making that 
commitment to early childhood development in our Nation and 
particularly in Hawaii would be a wondrous thing.
    Senator Akaka. Thank you so much. Continue the good work 
you're doing out there in Wai'anae.
    Ms. DeCambra. Thank you.
    Senator Akaka. Ms. Silva, I want to commend you for talking 
about your period of expectancy and also about the culturally 
sensitive kinds of experiences you've had with your children. 
You also mentioned that the program helped to care properly, 
helped you to care properly for your children. My question to 
you is, how well known is this program in the community?
    Ms. Silva. Not very, as far as I know. I only found out 
because someone I know was in the program. Other than that, 
nobody, I know none of my neighbors that I talked to were aware 
that this program existed. I told everyone I know how much it's 
done for me and what I'm getting out of it. I'm referring a lot 
of people to the program.
    Senator Akaka. The program you're in now, how many children 
are there in the program?
    Ms. Silva. We don't meet as a group, we meet one on one. 
We've done a few workshops where we meet as a group, but it's 
up to the parents if they can make it. Some of them need to 
catch the bus, some of them don't have a way, some of them, 
maybe their babies were sick. The workshops that I have 
attended, I think about eight parents and their children.
    Senator Akaka. Mr. Johnson, I was interested in your 
testimony about Keiki Steps Play Morning. So I guess this 
program takes place in the morning?
    Mr. Johnson. Yes; it does. Since I work at night, I can 
take my daughter in the mornings. It helps me to play with her.
    Senator Akaka. Besides being with your daughter, do you 
participate in working with other children in the program?
    Mr. Johnson. Yes.
    Senator Akaka. How widespread is this program? Is it just 
within your community or is it in other communities?
    Mr. Johnson. I think there is one in [Native word] as well. 
Other than that, I don't know much about it.
    Senator Akaka. Ms. Robins, of course your daughter shows 
that she's enjoying the program. Her Hawaiian is, from what I 
could gather, I couldn't hear everything she said, quite well, 
and she is a bright, bright girl. I'm asking this question not 
because of her, but maybe because of other children, do you 
think that this Punana Leo program gets good results for 
children?
    Ms. Kalau'ihilani Robins. In language or in other areas?
    Senator Akaka. Both in the language and in their education.
    Ms. Kalau'ihilani Robins. Like I said, it's probably not 
for everyone. But the lives that it has touched that I see, I 
have been in Punana Leo since 1997. And I've come across many 
people. I can honestly say it's a life changing experience.
    Senator Akaka. And let me ask you, at home, do you speak 
both English and Hawaiian, or just mostly Hawaiian?
    Ms. Kalau'ihilani Robins. I try to speak Hawaiian as much 
as I can, and then where I don't have the knowledge, I'll 
substitute English. My husband tries to keep up with her. 
Actually, when the child attends Punana Leo, it has been shown 
them, by the third month already, they're at a level where the 
kids speak and communicate and understand. So she often tells 
us [phrase in native tongue], Mama, you should correct me if 
you see any problem. So actually, it's a learning thing for 
both of us. So we do do both. But I try as much as I can to 
speak Hawaiian first.
    Senator Akaka. Just as an example, my grandson went to the 
program. I guess they forget, because we're at somebody's house 
and he'll say [phrase in native tongue]. The person will say, 
what is he talking about? But he's looking for his shoes. 
[Laughter.]
    Mahalo. Thank you so much. Thank you, Mr. Chairman.
    The Chairman. And may I thank all of you, Ms. DeCambra, Ms. 
Silva, Mr. Johnson, and Ms. Robins, and Anuhea. Thank you very 
much. Mahalo.
    The Chairman. Our next panel consists of Lori Matsuoka, 
Leialoha Jenkins, Parent, Keiki O Ka 'Aina Preschool, and Nanea 
Akau, Student, Hale O Ulu, Child and Family Service Alternative 
School.
    May I call upon Ms. Matsuoka.

 STATEMENT OF LORI MATSUOKA, PARENT, KEIKI O KA 'AINA PRESCHOOL

    Ms. Matsuoka. Good afternoon, Hon. Daniel Inouye and Hon. 
Daniel Akaka.
    About 1 year ago, I was what many people might term as a 
stay at home mother. Abigail, our youngest child, was not yet 
old enough to attend grade school. My husband, Millard, and I 
decided that it would be in Abigail's best interest if he 
worked while I remained at home to care for her.
    Although I was able to spend a lot of time with my 
daughter, I often wondered if Abigail might benefit more if she 
attended a preschool. However, even if I worked, the cost of 
sending her to a regular preschool would have been a financial 
burden for our family. I would also defeat the purpose of my 
wanting to be the one to care for her.
    I heard about Keiki O Ka 'Aina Preschool and the HIPPY 
program through a friend. It was like an answer to my prayers. 
This school would provide Abigail with an environment much like 
a regular preschool, but what was unique about it was that it 
required each child to be accompanied by at least one parent or 
caregiver. It was a parent participation program.
    I soon found out that the goal behind Keiki O Ka 'Aina was 
that it believed that the parent is the most important teacher 
in the life of their child. We are grateful to you, Senator 
Daniel Inouye, and the many individuals who believed in this 
program's mission. Keiki O Ka 'Aina Preschool became federally 
funded, which allowed Abigail and I to take advantage of this 
wonderful program which best suited our needs.
    Abigail and I started attending Keiki O Ka 'Aina in January 
of 2001. It provided us with a safe and nurturing environment 
where I was encouraged to be active in every stage of her 
learning. This allowed me to see Abigail learn and develop in 
ways that I probably would not have been able to in the regular 
preschool setting.
    Abigail was given opportunities to interact with other 
children while I developed friendships with other parents and 
caregivers. It was a real ohana, a family.
    Periodically, guest speakers were invited to share 
information in their specialized field, such as health, child 
development and family intervention. Keiki O Ka 'Aina also was 
the site for WIC, which is a program that provides subsidies 
for families that qualify based on their income. Our family has 
also been able to benefit from the WIC program, which I 
probably would not have otherwise known about if it were not 
for Keiki O Ka 'Aina.
    A valuable part of Keiki O Ka 'Aina was its focus on Native 
Hawaiian education. A creative curriculum was provided for 
families where we learned about an important aspect of our 
lives: our culture and our heritage. I could see the benefits 
of attending Keiki O Ka 'Aina as not only Abigail's but my own 
self-confidence grew. Having previously been a victim of 
domestic violence, it was a major step for me to be out in 
public.
    As I became more active in the preschool, I felt that I had 
finally found a place where I was safe, I wasn't being judged, 
and that I was accepted for who I was. As I continually 
received encouragement from the staff members, my self-esteem 
developed. I branched out and attended conferences on child 
development and education. I will always be grateful to have 
been given these special opportunities to become further 
educated in an area which is important to me, the preservation 
of family.
    My active involvement in Abigail's school soon allowed me 
to become a part of the organization. I graciously accepted a 
leadership role in expanding an area of Keiki O Ka 'Aina, a 
traveling preschool. My staff and I travel to various locations 
around the island to provide a smaller version of our 
preschool. We share our experiences with others, so that they 
can recognize the importance of their roles not only as parents 
and caregivers, but also as teachers for their children.
    Abigail and I were also fortunate to be part of the HIPPY 
program and home instructional program which allowed me to 
continue my role as an educator for not only Abigail, but my 
seven year old as well. This allowed me to educate my daughter 
at home in a more private and relaxed setting. We were provided 
with materials and books that were used as teaching schools. 
The girls would look forward to the special time that I would 
set aside just for them, one of the requirements of HIPPY. It 
became a family quality time for us.
    The success rate of HIPPY programs extends nationwide. 
HIPPY has already been successful since its introduction to 
Hawaii. I am grateful for the life skills I have developed with 
Keiki O Ka 'Aina. Together, Abigail and I have learned so much 
about ourselves, about others, our community and our world. I 
strongly believe that the mission of Keiki O Ka 'Aina and the 
HIPPY program are invaluable and that many more families should 
be given the opportunity to benefit from this wonderful 
experience.
    Thank you.
    [Prepared statement of Ms. Matsuoka appears in appendix.]
    The Chairman. Thank you very much, Ms. Matsuoka.
    Now may I recognize Ms. Jenkins.

                 STATEMENT OF LEIALOHA JENKINS

    Ms. Jenkins. Aloha, Hon. Daniel K. Inouye and Hon. Daniel 
Akaka.
    My name is Leialoha Genieal Kehaulani Ernestburg Jenkins. I 
was born in Honolulu and reared in Laie from age 4. I am a 
Native Hawaiian and Samoan descendent. I am a product of the 
public school systems, namely Laie Elementary School and Kahuku 
High School. I am a mother of five children, one who is special 
needs, visually impaired. I am also the caregiver for my 16 
year old nephew.
    I am here to talk about preschool, special needs and 
welfare challenges that I have encountered. In 1995, I gave 
birth to my baby prematurely at 26 weeks of her development. 
The normal development of an infant is 40 weeks. This baby 
weighed 2 pounds 8 ounces and was 15 and three-quarter inches 
long. She had retinopathy of prematurity and bronchial 
pulmonary dysplasia. I would be able to take her home 2 months 
after she was born, and at this time she weighed 4 pounds 5 
ounces.
    We went home for 1 week and then returned to Kapiolani 
Hospital because her retinas were detaching. Emergency surgery 
was planned within 24 hours. The surgery was a success; 
however, no one spoke my language to tell me that the result of 
saving her retina was a loss of her peripheral and main vision. 
What little she had left would be considered as permanent 
damage.
    She is legally blind in her left eye and partially blind in 
her right eye. Bringing her home was another situation. I could 
not have anyone in the house who was sick, and I had to shelter 
her from everyone. Every morning we would wake up and put human 
fortifier in her milk and warm it up, which is bacon and eggs, 
and warm it up and give it to her. I would also have to give 
her caffeine to make her active so that she would get hungry 
and thereby begin to eat so that she could grow.
    If she had a cold, I would suction her by putting a tube 
down her nose and getting it down into her lungs in order to 
suction the mucous out of her lungs so that she could breathe. 
If she was wheezing, I would have to administer aerosol 
treatments to her lungs so that they would be clear for 
breathing. The treatment would continue every 3 to 4 hours.
    I was a single mom living on the welfare system with this 
special needs child and trying to go to school at the same 
time. Federal policy level planning doesn't understand the 
needs of families on the community level, especially when it 
comes to families living in the rural community. Everything 
starts with the 24 month countdown in the welfare system. As 
soon as you get close to this 24th month of receiving financial 
assistance, you are mandated to begin work-related activities. 
In my case, when I was at the 18 month mark, I was being 
mandated to begin the First To Work Program. At that time I was 
attending college full time and carrying 16 credit hours.
    On top of attending classes and studying, I was forced to 
attend work training workshops to comply with Federal 
regulations. When these training workshops conflicted with my 
class schedules, I was not allowed any flexibility to exempt 
out of the work training classes. I could not replace my hours 
of school as work study time. I feel that in order to make the 
system work better, we need to consider education as important 
as work training for preparing people to go back to work.
    Education is the foundation to someone's future and is as 
important or more important as work experience. Education is 
food for life. If I can be educated, I have a better chance to 
maintain my family at a higher standard of living than if I had 
to take a lower paying position today without an education. 
Educational time should be able to be used as part of the first 
24 hour work training time in order to qualify for welfare 
benefits. I am in complete agreement that the welfare benefits 
be tied to passing courses at a minimum GPA of 2.0 or higher.
    Problems with transportation and lack of accessible 
services in the community. When I brought my baby home from the 
hospital, I had to beg for services to come to my home. I had 
to justify why the mobile team needed to provide services to my 
child versus taking my child in to a therapy team in a central 
location in Honolulu, which is about 30 plus miles away from my 
home. I was not able to transport my child because she would 
stop breathing and I would not be aware of the situation until 
I turned around and looked at her. This situation was not safe 
for baby and me.
    The State Department Systems don't work together. The 
Department of Human Service, DHS, income maintenance worker did 
not get any help for my special needs child when she was born. 
She did not offer me any services or know of any options for 
me. Her only concern was to add this new child to the system. 
She did not refer me to the Department of Health services or 
the Department of Education when my child needed services. The 
hospital social worker did more for me than the three batches 
of government did at the hospital level.
    My child's transfer information about her, individual 
support plan, that's the ISP, from Department of Health was not 
accepted or acknowledged by Department of Education. The two 
agencies did not work together, even if they were both State 
agencies. Each blamed the other or referred to the other as the 
one who was responsible for special needs services for my 
child. In the long run, the client, which was my child, is the 
one who suffers.
    Another challenge that I faced was emotional isolation as a 
single parent of a special needs child. I needed a support 
system from others that understood the problems and challenges 
I was going through. With the help of a social worker, I was 
put in touch with another family who had a special needs child. 
With that parent, I was able to start a support group for 
parents of children with special needs in my community.
    I could have used a better system of care for me and my 
child that would have helped me negotiate the system better. I 
needed a seamless system, a system where departments, agencies, 
hospitals, were willing to work together instead of against 
each other. Much of what I was able to access was due to my own 
persistence with the system and trial and error. I went through 
the phone book to look up all the agencies that dealt with 
children with special needs. For example, an income maintenance 
worker told me, why did you apply for Social Security when you 
could have gotten financial assistance through Aid to Families 
with Dependent Children?
    We need a better working system for parents with young 
children, especially if the child has a special need and lives 
in a rural setting. The glue money, or the money to help get 
the system working better together, would greatly have helped 
my situation then and even today. This glue money that I'm 
referring to is the safety net we need to help Native Hawaiian 
children have the opportunity to succeed in life.
    I feel that the welfare system does not have a safety net 
system that is in place and working. We are the pioneers who 
are trying out the system and amendments are being made at my 
child's and my expense and life. Please correct the welfare 
system by implementing education as an option to work. Please 
stop making the system more difficult to live in. Please do 
away with restrictions of how the first 24 hours of your work 
plan can be used. Leave some flexibility to the parent.
    I feel that Parents and Children Together, which is the 
PACT program, Families and Children Education, which is FACE, 
and literacy programs and also Pulana Leo, Keiki O Ka 'Aina and 
Keiki Steps and all the programs that were mentioned here today 
are the programs that teach the parents the skills to parenting 
and helps them develop a better functioning home for children 
to live in. If we enforce programs like these and give parents 
options to take this route with education versus work force, we 
give the parents the tools they need to succeed in a loving and 
nurturing environment. Teach they how to fish. Don't give them 
the fish.
    In closing I'd just like to say that in June of 2001, I 
graduated from University of Hawaii with my bachelor's degree 
in social work. I'm in the process, on the waiting list to 
attend UH Manoa School of Social Work Masters Program. Mahalo.
    [Prepared statement of Ms. Jenkins appears in appendix.]
    The Chairman. Congratulations.
    Ms. Jenkins. Thank you.
    The Chairman. Ms. Akau.

  STATEMENT OF NANEA AKAU, STUDENT, CHILD AND FAMILY SERVICE 
                       ALTERNATIVE SCHOOL

    Ms. Akau. Good afternoon, Chairman Inouye and Senator 
Akaka.
    My name is Nanea Akau and I am 17 years old. I am a student 
at Child and Family Service Alternative School, Hale O Ulu. I 
am here to talk about the importance of preschool.
    I grew up in Kalihi and am living in Ewa. I will be 
graduating shortly, June 2002. As I was growing up, I never had 
the privilege of going to preschool. When I entered 
kindergarten I always felt uncomfortable and behind 
academically. I would never ask questions or raise my hand in 
class because I was very shy and felt insecure. This has been 
the case throughout my schooling.
    I now attend Hale O Ulu School so I can catch up with my 
credits and graduate on time. I am now much older and wiser 
than I used to be. I have more courage now than from what I had 
before. I found the courage through my friends that I met a 
Hale O Ulu and through my job at Jamba Juice. My friends 
encouraged me to do my best and helped me realize what is more 
important in life, and Jamba Juice forced me to open up a 
little more to people without being shy to answer questions.
    I feel that if I had had the chance to attend preschool I 
might have learned to be more confident with the skills I 
needed to help me keep up with my classmates and be a little 
more open. I believe preschool will help many children prepare 
for kindergarten. We all know that when you don't like 
something the first time your whole outlook on the experience 
becomes negative. This is exactly what happened to me.
    As I got older I learned that I didn't have to go to school 
and I could just cut out. I started cutting out in seventh 
grade and as a result of that I failed and now I'm struggling 
to graduate because I want to graduate on time with my class 
and make my parents proud. They were really frustrated with my 
brother and me because we were both failing in school. My 
brother never graduated and they were really disappointed. I 
saw what both my parents and my brother went through and I 
don't want to be a problem to my parents and put them through 
that again.
    Preschool can only help children if it's available. So 
please help support the funding for preschools in Hawaii so 
that it may prevent other children in the future from having 
difficulties like I had. Please help create opportunities for 
the children of Hawaii.
    Mahalo for allowing me to share my mana'o.
    [Prepared statement of Ms. Akau appears in appendix.]
    The Chairman. Thank you very much, Ms. Akau.
    Now may I call on Ms. Ann Kawahara.
    Ms. Kawahara. Senators Inouye and Akaka, my name is Ann 
Kawahara. I'm the principal at Hale O Ule School. I came to 
just lend a little support for my student. Thank you.
    The Chairman. Congratulations.
    Ms. Matsuoka, if I may ask now, is there a long waiting 
list to get in to your school?
    Ms. Matsuoka. No; we're open. It's a parent and child 
participation program, it's a free program.
    The Chairman. You are able to accommodate all those who 
want to get in?
    Ms. Matsuoka. Right now, we're really getting--well, I do, 
we have one stationary site that is there 4 days a week in 
Kalihi. I go out and go to other different sites. We have about 
right now it seems like about 400.
    The Chairman. From your testimony, it appears that you have 
benefitted just as much if not more than your daughter.
    Ms. Matsuoka. Oh, yes, I have, with just the education that 
I've gotten about parenting.
    The Chairman. Ms. Jenkins, I do not know how you do it, but 
you are my kind of gal. Six children and going off to get an 
education, I congratulate you.
    Ms. Jenkins. Thank you.
    [Applause.]
    The Chairman. I tell you what I am going to do. I am going 
to share your testimony with the State government. Because we 
are from the Federal Government, and we are not in a position 
to respond to that. But what you just told us, is a terrible 
story that should not be repeated, and I will make certain I 
get a response. When I do, you will get a copy of it.
    Ms. Jenkins. Mahalo. Could you pass that on to Patsy Mink, 
because she's writing a law for reform in regard to 
implementation?
    The Chairman. We will try to make it flexible so that 
education can be a credit for work training.
    Ms. Jenkins. Thank you.
    The Chairman. Ms. Akua, you are a very courageous witness, 
to be willing to share your life experience with us, telling us 
how your life was as a child. I am glad that your testimony 
will help us further understand the need for preschool 
education. Your testimony has been very helpful.
    How is your brother doing?
    Ms. Akua. He is doing better.
    The Chairman. He did not graduate, did he?
    Ms. Akua. No.
    The Chairman. And you are going to graduate?
    Ms. Akua. Yes.
    The Chairman. Good for you. What are you going to do after 
that?
    Ms. Akua. College.
    The Chairman. You are going to college. Some day you will 
become a doctor. We can tell.
    Ms. Akua. Thank you.
    The Chairman. Ms. Kawahara, congratulations. How many 
students do you have?
    Ms. Kawahara. Presently we have 79 students enrolled. These 
students come to us from the Leeward District schools, and we 
enroll them for up to about 2 years with us, and we work with 
them on credits and of course some social development.
    The Chairman. What is the cost to the child?
    Ms. Kawahara. There is no cost to the child. We have 
agreements with the Department of Education and Child and 
Family Service. We go looking for grants, and foundation 
assistance that we can get also.
    The Chairman. Thank you very much.
    Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman.
    Ms. Matsuoka, I'm pleased to hear the positive impact of 
your participation in Keiki O Ka 'Aina. I am glad to hear that 
parents can get educated. You're working with the children and 
I want do commend you for what you've been doing.
    This hearing and all the information that we're gathering 
is going to help us in the development and implementation of a 
comprehensive Native Hawaiian early childhood educational 
policy. If there's one thing that you can say what could be 
placed into this kind of policy, can you mention something like 
that, from your experience?
    Ms. Matsuoka. Basically, we're out serving the community. 
We have people that come from just different dynamics that goes 
on in their life. We are a safe place. Everyone, Native 
Hawaiians and the rest of the community, we are economically 
challenged. So having a program like this to come to, to bring 
your child, you educate the parent, and in return, the parent 
can be the best teacher for the child. Just basically, we are 
out there serving the community. We're helping to prevent child 
abuse, it's a safe haven for parents to come with their child 
to participate and play with their children.
    Senator Akaka. Thank you.
    Ms. Jenkins, I was sad to hear about the lack of 
information sharing between State agencies as you tried to 
obtain services for your child. It's sad to hear that there are 
disconnects in trying to do that. And for me, and for all of 
us, we're looking at this Native Hawaiian early childhood 
education, development and care policy as something that can 
help to prevent this kind of thing from happening.
    But I just want to take the time to commend you for what 
you have done under the circumstances. And I think from what 
you've testified, your experience has made you a more positive 
person. And it will certainly help you and your children.
    Ms. Akau, I was impressed with your honesty, the honesty of 
your testimony, and want to commend you for a job well done. 
It's great to hear from a person like you who has now a 
positive outlook on life. I just want to say Godspeed to you 
and best wishes in all you do. It looks as though you're going 
to do well.
    And Ms. Kawahara, again, thank you for what you are doing. 
Again, I just want to mention that all of this, these 
testimonies, will help us to formulate the policy that we're 
looking for. Thank you very much.
    Ms. Akau. Thank you.
    The Chairman. This testimony indicates that all is not 
lost. There's a great future ahead of us. Thank you very much.
    On our next panel is the executive director of the Keiki O 
Ka 'Aina preschool, Momi Durand; the medical director to 
Waimanalo Health Center, Dr. Charman Akina; and the president 
and chief executive officer, Enterprise Honolulu, Mike 
Fitzgerald.
    Ms. Durand, welcome. The witnesses have said very nice 
things about Keiki O Ka 'Aina.

STATEMENT OF MOMI DURAND, EXECUTIVE DIRECTOR, KEIKI O KA 'AINA 
                           PRESCHOOL

    Ms. Durand. Praise God and thank you. Mr. Chairman and 
Senator Akaka, all my friends here, thank you so much for the 
invitation to come and talk to you folks and just share some 
ideas.
    I know that we're supposed to try to address some issues 
that we're finding in the early childhood arena. So just some 
of the things that I'd like to share that I think would be 
important with the policy making would be that, I would like to 
find a way to get information out to the parents before things 
happen. To have programs out there in the community that are 
available for parents when things are already going wrong, it's 
a little bit too late.
    So programs like Pulama I Na Keiki that can catch it before 
it ever happens, that start to teach parenting classes and that 
kind of thing before, and address issues before the parents 
have the children, before these problems come out, so they can 
start addressing issues ahead of time. Because once you're in 
the middle of the turmoil of dealing with the problem, it makes 
it worse and it's really a little bit too late.
    So I think that programs that are proactive rather than 
reactive are really, really helpful. Programs like Ho'owaiwai 
Nakamali'i have just been invaluable, programs that can help 
get all our resources together, that have gone out into the 
community to identify every single Hawaiian early childhood 
education program, as well as just the State, even non-Hawaiian 
programs. But anything that's available out there, they have 
brought us together in a community group, and they've been able 
to bring us together so that we can network and do 
collaborations.
    I would hate to see funding for that program be cut because 
it's just a wonderful program that allows us to do our job and 
not have to worry about going out there and becoming resource 
specialists ourselves. They bring our programs together because 
none of us can do it all ourselves. We can work together and 
give all the relevant services that a particular family might 
need, from all the way up from early childhood, from 0 to 3 
years, through the preschool years and then as they transition 
into kindergarten, they put together that entire process. So I 
would hate to see that kind of a program leave.
    If you look back there, you have a picture of an o'opua put 
up there. If you think about early childhood moving from the 
zero to three years, the pre-birth into the early childhood 
years, then in through preschool, as you move further down into 
the o'opua and then transitioning out into kindergarten, as we 
go out into the ocean and out into the world, what Ho'owaiwai 
Nakamali'i has been for us is that water system that travels 
through and brings all the different services together and puts 
it all together. They've become the glue for all of us to come 
together and to really--they've put me together with most of 
the places that we're serving now. They've been a really big 
reason why we're so successful.
    And all of the play groups, any play group that's operating 
right now in a State, they're all doing a wonderful job. They 
all bring parenting education to the parents. We always feel 
like the play group is just the most wonderful thing, to have 
socialization for the child. But then once those 2 hours are 
gone, oh, it was so wonderful, we got to come, we got to play 
with other parents, our children got to play with other 
children. And then they go home, and their real life, the real 
world starts.
    If we didn't equip them with tools via maybe stress and 
anger management classes, child development classes, what to 
expect so you don't have unrealistic expectations for your 
children, child guidance to discipline, to all kinds of classes 
as to what is available in the health and welfare section of 
your community. If we're not able to equip parents that way, 
then those 2 little hours that they have were, I don't want to 
say wasted, but not as, we weren't as fruitful with that time 
that we were blessed to have them in our place as we could have 
been, if we could just have given the parents a little bit more 
education, tools, however you want to think about it.
    So that's a really important component of the play groups. 
Not only does it give children a chance to learn socialization, 
but it also gives us a chance to make an impact on the parents, 
so they can take it home and use these things 24 hours a day in 
the real world for the rest of those 6 days they're not in our 
play group.
    The Academy of Science has just come out with a brand new 
study in a book called Neurons to Neighborhoods. This is 
supposed to be the right now, the cutting edge of everything 
that is happening right now. It's the new information. Some of 
the stuff that they address is that the mental state of the 
parents is going to have one of the biggest impacts on what 
happens to our children in early childhood. So I'd like to see 
more programs that actually address that for the parents, that 
there will be more programs that will help with counseling for 
parents, because if the mental health of our parents is that 
important to our children during early childhood, I'd like to 
see more programs address that as well.
    The fact that our programs are brought, I think the reason 
that, this is just something I drew over here based on 
something somebody said over here, we keep talking about our 
children at risk. Unfortunately, the sad state is that most of 
them are. We as parents look at them as at risk. I have a 9-, a 
7-, and a 3-year old. When I started this program 6 years ago I 
was a mother on welfare. We went for 4 years, thank goodness, 
to funding from the Federal Government that you folks have 
supported. I thank you for that, because we've been able to 
expand it. But it was always based on the fact that we had to 
come forward and show you how our children are at risk and why 
they are living under the rainbow in the rain.
    I'd like to start thinking of all Hawaiian children as at 
promise, living above the rainbow. I think the idea that we 
have to look at all these programs as addressing children at 
risk, even that in our thinking of the way we're looking at 
them, and the thinking that the way the parents can qualify for 
these programs, it starts with us already looking down. I'd 
like for us to start looking up at our children.
    And these programs, these wonderful programs that people 
from the outside are looking at our Hawaiian programs, and 
they're saying, gosh, some of these programs are just cutting 
edge, just wonderful, full of information, they wish they could 
qualify to be part of them. And I wish that we could look at 
ourselves and our children up there already and start thinking 
of them at promise rather than at risk.
    So I wish that we could come to the table and not have to 
prove to them why we need this money. Unfortunately, the sad 
truth is that we do need it in that way. But we could identify 
the children that we serve and start looking at them and 
talking like this is an at promise program, not a program to 
serve our at risk community.
    And just the fact that all these wonderful programs are 
being done in a culturally relevant way, they can hear us when 
it's delivered that way. Because a lot of the things we present 
educationally, while it might come from our background that 
we've learned just in schools, if it's presented in a 
culturally relevant way, which is really important in all of 
these programs, I think that also needs to be addressed and 
that needs to be supported.
    Thank you so much.
    [Prepared statement of Ms. Durand appears in appendix.]
    The Chairman. You touched upon a very important aspect of 
the program, to be able to communicate to parents the 
availability of the services before the catastrophe strikes. 
How are you presently communicating your ability?
    Ms. Durand. At every one of our sites, one of the things 
that's required as part of our program, what we do is we give 
them an SAT-based kindergarten readiness program that they buy 
into, because they want their children to get smart. That's the 
buy-into. Sure, your kids are going to get smarter, it's a 
nationally known program, we know your children will get 
smarter. But if you want your children to come and get this 
program, you are required to do the parenting class portion of 
it.
    So that's how we address it. We make sure they come in, and 
before we even start teaching the parenting skills, the first 
few weeks are nothing but stress and anger management, we just 
look at the parents and we just concentrate on things that can 
help the parents. Because if we're not looking at what's going 
on with the parents and how they're living their everyday life, 
then it doesn't matter if you're going to teach them about 
child development or discipline or guidance. They're not going 
to be able to take care of themselves.
    So that's how we do it. We try to, we incorporate and they 
have to buy into it. Because if they want their child to get 
smarter, they have to take the parenting classes.
    The Chairman. How many children are involved?
    Ms. Durand. Right now we have about 400 statewide. It's 
completely [inaudible], the grant is, and I thank you so much. 
This program has taken a completely, totally, except for QLCC, 
and Oha, we had a guy through Oha, funded program, took an 
absolutely nothing program and it has changed the lives of not 
only the parents. People think that because this is a program 
that makes your kid smarter that it's the most important thing.
    All of our stuff that comes back to us, the number one 
thing they address is the relationship that is changed between 
the child and the parent, because all of a sudden, this parent 
is sitting down for 15 minutes a day, because the child is 
saying, Mommy, I've got to do my homework, got to do my 
homework. And these relationships are changing. Changing 
families, changing that horrible spiral of how the parent looks 
at the child, how the child reacts to the parent, suddenly it's 
made them closer. That's one of the things that have just--and 
we've seen that across the board.
    The Chairman. So you have developed passionate mothers.
    Ms. Durand. Yes; and this program is built on and only 
hires mothers. So even the people that we hire, we hire mothers 
from in the community, in the program. We go out, we recruit 
our people. We take these mothers out, we give them parent 
training. A lot of them, this is their first job ever. So we 
build them up that way. That's the other half of it.
    The Chairman. Thank you.
    Dr. Akina.

    STATEMENT OF CHARMAN J. AKINA, M.D., MEDICAL DIRECTOR, 
                    WAIMANALO HEALTH CENTER

    Dr. Akina. Senator Inouye, Senator Akaka, I practice 
internal medicine at the Waimanalo Health Center, and I'm also 
the medical director there. Thank you for inviting me to 
participate in today's hearing.
    As we are aware, early development, education and care of 
Native Hawaiian children is poor and deficient when compared to 
other populations of similar socioeconomic levels within our 
State. As we are hearing, the Native Hawaiian child being 
targeted is at greater risk of behavior and physical health and 
of social development mainly because of family dysfunction, 
increased severity of perinatal risk factors, and poor 
parenting skills.
    To reduce this problem is not impossible. Non-profit 
community health centers already are established in areas 
heavily populated by Native Hawaiians and offer those services 
required to alleviate these problems. Outreach programs are the 
missing component to bring together families with children in 
need and available appropriate health center services.
    Native Hawaiians do not take advantage of available health 
resources and social services even when readily accessible. 
Outreach programs promoting personal health and hygiene, family 
planning and parenting skills for respective communities need 
to reach families with children up to 12 years of age and women 
of childbearing age.
    Outreach programs whereby workers go out into their 
respective communities and schools to further health education 
and to promote awareness and participation with existing 
community health center services are not income generating, and 
therefore are rudimentary because of lack of funding. As a 
consequence, existing facilities that can and will improve 
Native Hawaiian childhood development, education and care are 
not being taken advantage of by respective Native Hawaiian 
populations being served.
    To resolve or diminish the severity of family dysfunction 
is a very slow and difficult task characterized by poor 
outcomes. This task becomes even more impractical and 
unrealistic when there is the immediate need to improve the 
home environment for children who already exist and are in need 
of a stable, organized family structure in which there is a 
warm, nurturing and loving environment.
    To improve prenatal and maternal health requires intensive 
outreach and patient education pertaining to family planning 
and perinatal care, particularly in schools at the junior high 
and high school levels. This outreach program must coordinate 
with an easily accessible ``teen'' women's clinic and perhaps 
an adolescent medicine clinic. In this way the incidence of 
teenage pregnancies can be minimized and early prenatal care 
emphasized and established.
    Improved Native Hawaiian early childhood development, 
education and care beyond the perinatal period is best achieved 
in preschools, kindergartens and elementary schools. Because of 
the prevalence of family dysfunction, children during their 
formative years are in need of emotional nurturing and support, 
cultural identification, and positive adult role models. This 
can be achieved as demonstrated by the Tu Tangata Program 
founded in New Zealand by the Maori due to having similar 
problems, particularly with their youth, and being introduced 
to Hawaii by the Queen Emma Foundation and the Queen's Health 
Systems.
    Based on this program is the Ku I Ka Mana Mentoring Program 
developed by our health center in Waimanalo and implemented at 
the seventh grade level at the Waimanalo Elementary and 
Intermediate School. This grade level was targeted because 
social problems were beginning with students at this level.
    The results of the program include significantly improved 
school attendance and student performance beginning at the 
seventh grade and continuing through the ninth grade. Along 
with this improvement has been a decrease in social behavioral 
problems.
    Similar school based programs have been non-established in 
other schools mainly because of lack of funding. We have been 
able to have this program survive on a year to year basis 
mainly because we seek out grant monies for the program. It 
would be more ideal for the Ku I Ka Mana Program to begin at 
the first grade and to continue with the same mentor in each 
class through the seventh grade level. By the seventh grade, 
children are fixed in their ways and the die is already cast.
    Lastly, there is also great need for Native Hawaiian 
children to learn and comprehend the English language fluently. 
By this means they will be able to complete their education 
successfully and be able to survive in the modern world and 
current economy while preserving their cultural heritage. If 
during the formative years English is taught as a second 
language, as is done for immigrants to Hawaii, Native Hawaiian 
children will be able to learn the English language fluently 
and as easily as they have been able to learn the Hawaiian 
language when attending Hawaiian immersion schools.
    These are the kinds of pilikia and mana'o we have in 
Waimanalo. Again, I thank you for allowing me to express these 
opinions.
    [Prepared statement of Dr. Akina appears in appendix.]
    The Chairman. According to your testimony, your Ku I Ka 
Mana mentoring program is apparently working.
    Dr. Akina. Yes.
    The Chairman. Because of the lack of funds, it cannot be 
sustained in other schools.
    Dr. Akina. Correct.
    The Chairman. How much would it take to carry out your 
program as you suggest it from the first grade on in all the 
schools?
    Dr. Akina. I would not have a good idea. Let me tell you 
what we have done. We have hired and groomed young adults who 
would be really unemployed to learn about the Hawaiian culture 
and to act as aunties and uncles in each one of the classes. 
They're there, not as teachers aides, but for the children. 
They look after the children, their needs, help them with their 
homework, exchange with them during their noon hours and after 
school, play games and just talk.
    Therefore, the children gain the emotional nurturing, the 
individual attention, the encouragement that they need which 
they're not getting at home. And it works.
    Now, the program for us, it presses our budget. But we're 
hiring people who would primarily be unemployed. So we don't 
have to pay them as much. I don't know how this would work in 
other areas where people would have to be hired on a regular 
basis. What's necessary is to have an adult in each classroom, 
not for the whole grade. So there's a link to one relationship, 
as in a family setting, for each one of the children, 
regardless of their background.
    The Chairman. How many seventh graders are now 
participating in your program?
    Dr. Akina. There should be maybe 120.
    The Chairman. And how are you being funded?
    Dr. Akina. Right now we're being funded through funds 
coming through the ADA. Prior to that we got grants from the 
Queen Emma Foundation and some other local foundations.
    The Chairman. We will see if we can find some more funding.
    Dr. Akina. Thank you.
    The Chairman. Thank you very much.
    Mr. Fitzgerald.

  STATEMENT OF MIKE FITZGERALD, PRESIDENT AND CEO, ENTERPRISE 
                            HONOLULU

    Mr. Fitzgerald. Senator, thank you very much for allowing 
me time to testify before your committee today. I'm delighted 
to be here.
    I represent Enterprise Honolulu, which was the former Oahu 
Economic Development Board. I recently moved to these islands 
from Florida, from the mainland. So I'm still on a pretty steep 
learning curve to learn about the culture, history, and even 
the economy. My assignment is to try to figure out how to 
diversify.
    My purpose for being here today is to assure you and the 
other members of the Hawaiian delegation that the organization 
that I represent, Enterprise Honolulu, is a new partnership 
that brings together business, government, university, labor 
unions, in a non-partisan way for the economic diversification 
of Oahu, and to assist our neighbor islands to help locate 
globally competitive businesses here that will provide good-
paying jobs for the citizens of this island and our neighbor 
islands.
    We acknowledge and recognize that the welfare and education 
of children in these islands are the validation of the future 
of Hawaii. If we educate and nurture these children well, they 
will create a positive future here. We also know that economic 
development, business and jobs, are not the end purpose in life 
at all, but merely one of the means to achieve a good quality 
of life.
    We also know that if people don't have good-paying jobs, if 
they have to work at more than one job or several members of 
the family have to work to provide adequate income for basic 
necessities, then the children of the family suffer, because of 
the parents' absence and stress of inadequate resources.
    One of the basic foundations of early childhood and K-12 
education is consistent and focused parental involvement, as 
we've heard here today, validated so eloquently by the previous 
presenters. That's really the support foundation of children, 
is the primary learning teacher. This, combined with culturally 
sensitive teachers, quality schools and real community support 
is what creates well educated, socially adept, successful 
students.
    If parents are forced to work several jobs to provide basic 
necessities they are less able to provide a calm, nurturing and 
stress-free home environment. I'm sure you are aware and I'm 
sure most of the people here today are aware that when people 
can't find or don't have the qualifications to get good paying 
jobs, the incidence of alcohol, drug, spouse and child abuse is 
more likely to increase.
    So we want to assure you and the other members of the 
delegation and the people here today that Enterprise Honolulu 
is not in existence to help a few rich people get richer. We're 
dedicated to helping improve the economy by economic 
diversification and good paying jobs for the benefit of the 
citizens who live here. Most of the members of our organization 
are intimately aware of the history of these islands, and are 
therefore determined that the quality of development we support 
and encourage is sensitive to the history, society and culture 
here.
    In conclusion, I want to assure you that we are committed 
to building a partnership here of government, business, 
education, university, unions and citizen leaders who will 
create self-determined, self-directed economic diversification 
that doesn't harm the environment and the culture and does help 
provide the foundation for a civil, safe, equitable and 
generally prosperous society.
    We believe the process of sustainable development that has 
been pioneered in many places throughout the world, and I have 
to say that this poster is a perfect example of the ancient 
version of the first steps of sustainable development, that if 
we could, in the 21st century, figure out how to simply add 
technology to create the modern day version of this, we would 
create a model for the rest of the world. Because it's with 
considerable land, ocean, technology assets and dedicated 
people of these islands offers the possibility for Hawaii to 
become a world model of a sustainable economy, culture and 
society that can demonstrate how to create a new balance and 
harmony which preserves the environment, the culture and 
general economic prosperity for the citizens of these islands.
    This is our goal. How we intend to do this is outlined in 
some of the documents that I have submitted to you. Thank you 
for allowing me to share this perspective with you.
    [Prepared statement of Mr. Fitzgerald appears in appendix.]
    The Chairman. Thank you very much, Mr. Fitzgerald.
    How long has this organization been operating?
    Mr. Fitzgerald. The Oahu Economic Development Board has 
been in business for over a decade. It has only operated for 
the last 2 or 3 months as Enterprise Honolulu with a 
restructured board, a new staff and new direction.
    The Chairman. And the membership is a broad one, as you 
have indicated?
    Mr. Fitzgerald. The membership is a broad one. In the 
testimony we've submitted is a list of the members. It includes 
business members, most of them are business members, but 
there's also education representatives and union 
representatives. So we're starting to build a unique team to 
bring together key leadership from all the important areas that 
are going to have to create a new, diversified economy.
    The Chairman. Do you have a collaborative relationship 
with, say, organizations like Punana Leo or Alu Like?
    Mr. Fitzgerald. I have not yet met representatives of these 
organizations, but I certainly am looking forward to it. I know 
from past experience and from coming here as a tourist for 30 
years to these islands and being a student of, and a great 
respecter of the history and culture, that a community-wide 
effort and initiative will be required to do this in the best 
way possible. I intend to help as much as we can.
    The Chairman. I can assure you that the level of activity 
in the Hawaiian community today is ten times more intense than 
it was 20 years ago. I would suggest that you get in touch with 
these organizations, and you will be not only surprised but 
amazed at the wide array of talent we have in our society. They 
will need your help and I think you could use their help. So we 
thank you very much, sir.
    Mr. Fitzgerald. Thank you.
    The Chairman. Thank you, Dr. Akina and Ms. Durand.
    And now our final witness, the Special Assistant and Policy 
Advisor on Children and Families, Office of the Governor, Lynn 
Fallin.

STATEMENT OF LYNN FALLIN, SPECIAL ASSISTANT AND POLICY ADVISOR 
        ON CHILDREN AND FAMILIES, OFFICE OF THE GOVERNOR

    Ms. Fallin. Good afternoon, Mr. Chairman. Thank you for the 
opportunity to testify.
    My name is Lynn Fallin, and as you indicated, I serve as 
Special Assistant and Policy Advisor on Children and Families, 
in the Office of the Governor. In the interest of time, I did 
submit lengthy testimony, what I will be doing is summarizing 
highlights of my testimony.
    The purpose of my testimony is to present the two-fold 
recommendations that were developed under the leadership of 
Myron ``Pinky'' Thompson and a group of Native Hawaiian 
organizations and early childhood organizations. The 
recommendation is two-fold.
    The second part of my testimony will provide a brief 
explanation about how the recommendations are aligned with the 
State goal, ``All of Hawaii's Children will be Safe, Healthy 
and Ready to Succeed.'' The first part of the recommendation is 
directed toward continued and increased funding for early 
childhood development, education and care.
    A recent study conducted of kindergarten teachers in the 
State of Hawaii indicated that many children in Hawaii's public 
school system are showing up not ready for kindergarten. The 
recent passage and implementation of the Federal ``No Child 
Left Behind'' Act highlights even more the importance of 
preparation in early childhood and support for the programs, so 
that children will be ready to succeed in kindergarten and 
school.
    The testifiers that preceded me gave you excellent examples 
of the programs and services available in the State of Hawaii. 
In addition, and this is by no means a complete list, funding 
such as the Child Care Development Block Grant, Head Start and 
Maternal and Child Health Care are very important parts of the 
safety net of services that our families access in the 
communities.
    These programs, and there are many of them, can be somewhat 
bewildering to parents and providers as they try to figure out 
what services might be available and how they might access the 
services. There are many programs within and out of Government. 
The second part of the recommendation proposes a model that 
aligns with the State goal and also hopefully will result in 
programs that are better aligned and more comprehensive for 
those children and parents in the community. In order to 
accomplish this, we acknowledge up front that there's no one 
program that can solve the programs and meet the needs. It is 
very important that public and private partnerships be formed 
that mobilize communities and can galvanize around and focus on 
truly improving outcomes for young children.
    With this model we believe the outcomes of Native Hawaiian 
children will improve, because the model is based on the 
principle of shared responsibility and common outcomes. 
Therefore, it focuses on working together and building 
partnerships across sectors. The model recognizes the strength 
of the Hawaiian culture and language and therefore seeks to 
build on this very important primary asset.
    The partnerships decide on what they might choose to focus 
on, not based on information that is informally gathered, but 
the model proposes that we organize data in a meaningful way so 
that communities can actually engage in decisionmaking and 
check their progress over time to determine whether or not 
appropriate developmental milestones are being met, or whether 
the system of care is strong enough or needs additional 
features.
    We call this model that we seek to build upon, as it 
reaches further development, at this time Ho'owaiwai 
Nakamali'i, the Native Hawaii Early Childhood Consortium model, 
and it is our full intention to continue the work underway to 
develop the system of care. And the focus is children pre-natal 
to age 5 years.
    I have attached to my testimony a color diagram that 
complements the picture of ohukawana. What this does is it 
focuses on the keiki and the ohana, the customer, if you will. 
It connects all the parts of the system at the community level 
that must work together in order to truly improve outcomes.
    This model then has different components that the second 
page of the attachment highlights. The first part focuses on 
building capacity at the community level, organizational level 
and systems level. When I say that I mean that we need leaders 
in the community, facilitator that can help organize 
communities and help draw from them their ideas, and the 
outcomes we seek to change. We need groups then that can work 
with community advisory councils.
    We also need to be able to provide training so that we 
ensure that cultural sensitivity is an inherent part of the way 
the organization implements its programs. We need to build 
system capacity by convening an interagency group. At this 
time, through the efforts of Pinky Thompson, we've been working 
with QLCC, OHA, Kamehameha Schools, State agencies, and the 
Good Beginnings Alliance to help provide some core support to 
this effort. The program is being administered with Federal 
funding through Alu Like.
    The other part of the capacity building is being able to 
get good data, meaningful data that answers three questions. 
First of all, it tells us and helps us decide what outcomes 
communities might want to focus on. Second, it tells us what 
works. Third, if in fact what we're doing works. This entity 
would also help coordinate the various funder relationships so 
that we can in fact maximize all the resources of all the 
partners.
    At this time I would like to conclude my testimony on 
behalf of the partners and share a saying, ``I ka ulu 'ana o ke 
kalo e ola no ke kaiaulu.'' The translation is, in the growing 
of the taro, the community thrives. In this Hawaiian saving, 
the taro is the child, similar to the mythological origin of 
the Hawaiian people. In any typical Hawaiian village of old, 
the child and taro are raised and nurtured by the entire 
village. Because taro is a necessary staple, it in turn 
nurtures the community.
    Thank you on behalf of the group that was developed under 
the leadership of Myron ``Pinky'' Thompson for the opportunity 
to testify.
    [Prepared statement of Ms. Fallin appears in appendix.]
    The Chairman. On behalf of the committee, I thank you very 
much, Ms. Fallin.
    It is obvious that the State of Hawaii has suffered an 
economic downturn, and as a result the funding levels have been 
restricted and limited. Although I realize that funding alone 
will not answer the problems before us, it does help. So what 
sort of funding assistance would you need from the Federal 
Government?
    Ms. Fallin. The group that was organized by Pinky Thompson 
is in the process of formulating some specific details about 
what the blueprint looks like and what the funding would look 
like, more specifically.
    The Chairman. When would this be available?
    Ms. Fallin. We hope to have this available between 
September 2002 and the end of the year, of this year.
    The Chairman. And you realize that it will be too late for 
the next fiscal year? Because by then, we will have decided 
upon the level of funding in our appropriations bill.
    Ms. Fallin. I believe that because the partners have a very 
strong working relationship that we can accelerate that process 
significantly. [Laughter.]
    The Chairman. I would suggest you accelerate it to about 
June. Because the fiscal year of the United States begins on 
October 1. By the time September 15 comes along, as a member of 
the Appropriations Committee, I can tell you that most 
decisions have been made.
    Ms. Fallin. Thank you very much for sharing that very 
practical information with us. We will take it to heart.
    The Chairman. Otherwise, you will have just a printed paper 
for a while.
    With that, I would like to say that this hearing, which was 
dedicated to the memory of our dear friend, Pinky Thompson, 
will be adjourned. I thank all of you very much for your 
attendance.
    [Applause.]
    The Chairman. And to close this hearing in traditional 
Hawaiian fashion, may I call upon Ho'oipo DeCambra for the 
closing pule.
    Ms. DeCambra. I'm honored.
    I don't know how traditional it is, because I'm still in 
the learner class. Has the little girl gone, so I'm not 
embarrassed by my language? [Laughter.]
    I'm going to humbly give this only in Hawaiian. It was 
written because of the request of the Molokai children who were 
in the Hawaiian immersion class. It was written because they 
wanted to greet the Polynesian voyagers who were coming home. 
This morning, as I asked, what should I say in the closing, and 
I said, okay, Myron ``Pinky'' Thompson, what should I say?
    And this is what was guided to me. It is an ole that was 
requested by the little children of Molokai and it is about the 
voyaging canoes. More, it is about the era of the kupuna who 
have come into the light through the children.
    [Pule in native tongue.]

    Living current, the kona wind buffets the farthest reaches 
of the ocean and here, in the alive [Native word] the great 
current, the small current, the current that strikes the 
steering paddles of the historic fleet, all of the beauty of 
the Pacific has been witnessed during the regal gliding ride of 
that company of canoes over the grand sea, the broad, the 
boundless sea, an ocean traversed directly by the seafaring 
companions, over the great currents of Kanalua they have been 
watched over. There in far distant lands, here in the embrace 
of friends.
    On the forefront of the wind they have sailed to us. The 
stars of the dark heavens have given direction. The clouds in 
the sky have offered them protection. It is there that life is 
granted. Expansive live, expensive life, profound life, exalted 
life, bondless life for the islands of the ancestors to exist 
in a world of knowing.

    Thank you.
    The Chairman. I thank you.
    [Whereupon, at 3 p.m., the committee was adjourned, to 
reconvene at the call of the Chair.]
=======================================================================


                            A P P E N D I X

                              ----------                              


              Additional Material Submitted for the Record

=======================================================================


  Prepared Statement of Hon. Daniel K. Akaka, U.S. Senator from Hawaii

    Aloha. I am pleased to participate in this afternoon's hearing on 
Native Hawaiian Early Childhood Education, Development, and Care. I 
join you in paying tribute to our dear friend Pinky Thompson who 
devoted much of his life to working to build a better future for Native 
Hawaiians. It is with great pleasure that I join your efforts to make 
Pinky's vision for Native Hawaiian children a reality.
    As a former educator, I believe that there is no greater tool for 
success than the quality education which we can provide to our 
children. Education in Hawaii takes on greater significance as we 
consider the continuing need to preserve our culture, our language, and 
our heritage, in a rapidly changing and technology-based environment. 
Innovative programs that encourage family and community participation, 
preserve culture, and increase Native Hawaiian access to quality 
educational opportunities play a significant role in ensuring a bright 
future for all of us.
    I have reviewed the written testimony and statements and I am 
impressed with the thoughts, insight, and enthusiasm expressed by 
today's witnesses. While we have much to travel on the road ahead, we 
have made significant strides in recognizing the importance of a 
comprehensive approach to education that involves not only our 
children, but our families and our entire community.
    I am pleased to see the success of parent-participation preschools 
such as Keiki o ka 'Aina and to hear from parent-participants about the 
value of this important program. I am equally impressed by the Pulama I 
Na Keiki program--which focuses on prenatal care.
    I am encouraged to learn of the progressive actions taken by the 
Kamehameha Schools to meet more of the educational needs of Hawaiian 
families and children. As a Kamehameha Schools graduate, I support the 
increased outreach, public-private partnerships, and extensive 
collaboration with communities as well as other Native Hawaiian 
agencies and organizations to increase educational opportunities and 
access for our people.
    I am interested in hearing more about the model developed by 
Ho'owaiwai Na Kamali'i and how its guiding principles will be 
implemented. I look forward to working with the State of Hawaii to 
fulfill its goal that ``All of Hawaii's Children will be safe, healthy, 
and ready to succeed.''
    Again, I thank you, Mr. Chairman, for bringing us all together to 
work on the vision of our great friend, Pinky Thompson. I look forward 
to hearing from our witnesses this afternoon.


                Prepared Statement of Mary Frances Oneha

    April 5, 2002 Good afternoon Chairman. My name is Mary Frances 
Oneha. I am a Native Hawaiian with a PhD in Nursing. I am testifying as 
an individual to advocate for providing the support necessary for 
Native Hawaiian children to begin school healthy and ready to succeed. 
I was born and raised on a farm at Waiale'e. I am the second of 5 
children. I received my early education on the North Shore beginning 
with kindergarten at Kahuku, elementary school at St. Michael's in 
Waialua, and high school at Sacred Hearts Academy in Kaimuki. My 
parents were very supportive of the choices I would then make as an 
adult, receiving a Bachelor's degree in Nursing from the University of 
Hawai'i at Manoa, and a Master's in Nursing from the University of 
Washington.
    I began working with children and their families in Hawai'i and on 
the mainland, this lasted about 10 years. I have since worked in the 
community 11 years, 10 of which have been at the Waianae Coast 
Comprehensive Health Center. I am responsible for programs that provide 
support to pregnant women and homeless individuals/families. I have 
seen and struggled with the challenges Native Hawaiian families endure. 
I am here not to talk to you about what I do, but to tell you what I 
think was important for me to get to where I am today. As a Hawaiian, 
maternal-child nurse, and provider, these are the values that have 
brought me to where I am today:
    (a) 'ohana--My parents and grandparents were and are my role 
models. My family--aunts, uncles, brothers, sisters, and close friends, 
are my greatest support. They are whom I turn to for.guidance, 
knowledge, encouragement, honesty, and fun. Does health and educational 
systems, programs, and processes support this value of 'ohana in its 
entire context?
    (b) 'dina hanau--Hawai'i is the land of my birth, the land of my 
ancestors, this is where I belong, this is where I come from. Having a 
sense of belonging to a place--with its history, culture, events, and 
rituals--was instilled in me through my family. Belonging to this place 
influences who I am and the contributions I will make to this place. Do 
we create environments for children to know they belong to this land--
this living, breathing entity, that influences who they are and will 
become?
    (c) aloha--giving and receiving freely. Welcoming people to our 
family is a gesture my mother and aunt have mastered. They willingly 
give of their time and talents and do not hesitate in sharing their 
aloha with strangers. They are adept at establishing meaningful 
relationships and teaching this skill to their children. How do we 
teach and care with aloha so children understand the true gift of 
establishing meaningful relationships?
    There are many more values, however these have been the most 
influential in my life. As a Hawaiian, I know what the problems are, 
but I'm not necessarily the one that needs to be ``fixed'' or 
``changed.'' As a provider for 20 years, I know I'm part of the 
problem, and there's a whole lot of fixing and changing that needs to 
take place amongst us. As providers, we must accept the challenge of 
re-engineering our own behaviors, knowledge base, and rituals so Native 
Hawaiian children can be healthy and ready to succeed in school, after 
all, it is the most important legacy we should leave.
                                 ______
                                 

                   Prepared Statement of Brandy Silva

    Good Afternoon Mr. Chairman.
    My name is Brandy Silva and I am a parent of a 5-year-old son and a 
5-month-old daughter. While pregnant for my daughter I joined the 
program Pulama I Na Keiki.
    I am here to talk about how Pulama I Na Keiki has helped me 
overcome some challenges as a parent and what benefits I am receiving 
by participating in this program. Even though I already had a child I 
thought to join this program because I feel that parenting is a 
learning process and not matter how much experience a person might 
have, there will always be more to learn.
    When I found out that I was going to have another child I was quite 
anxious about being a parent of two children. How could I juggle my 
attention between two children? One child was already a handful and I 
it had been years since I tended to a baby. My boy was about to turn 
five. Would I remember everything in caring for a newborn? Then I 
joined Pulama I Na Keiki and my anxieties subsided. I now had someone 
who I could turn to, my parent educator. When we started our visits, I 
was in my third trimester and really nervous about labor. Would I know 
if I was in labor? There are so many pains and feelings I experienced 
with this pregnancy that I did not experience with the last. My parent 
educator brought my some handouts about labor signs as well and some 
literature on the weeks after delivery. She was also there to field 
questions when she was not there I could resort to looking at the 
handouts that had been given to me. Learning about bath care and car 
seat safety were big issues for me. We tend to take everything for 
granted. We think that if we buy a brand new car seat our child would 
be safe. Because boys and girls are different I was nervous about 
having to bathe my daughter. Going over the documents she brought 
relating to newborn care helped to ease my tensions.
    Another great aspect of this program is that we do projects, we 
create homemade toys that help to enhance the development of the 
children. So not only is this program helping me as a parent to care 
properly for my children, but also helping me to achieve the goal of 
being an active parent in developing my children's skills so they will 
1 day be able to achieve their greatest' aspirations.
    Because Pulama I Na Keiki is Hawaiian based program it also helped 
to tie in my culture and heritage in raising my children. There is a 
project that this program does, which is a quilt made of four patches 
that incorporated Hawaiian values. I feel that this is important to my 
children and I being of Hawaiian ancestry to know what our kupuna 
valued and why.
    For all these reasons I am grateful to be an active participant in 
this program and feel really lucky to have discovered that this type of 
program exists. It has helped me in so many ways and will continue to 
help me as I implement the knowledge that I have gained through this 
program. I would now like to thank you for giving me this time to share 
my experience and mana'o with you.
                                 ______
                                 

 Prepared Statement of William H. Wilson, Ka Haka 'Ula O Ke'elikolani 
      College of Hawaiian Language, University of Hawai'i at Hilo

    Aloha Senator Inouye and members of the Senate Committee on Indian 
Affairs. I appreciate this opportunity to testify relating to Federal 
policy on Native Hawaiian early education, development and care. I wish 
to speak on an area of special relevance to our College--preschool 
education through the Hawaiian language. I propose a Federal set-aside 
for Hawaiian medium preschool education under the 'Aha Punana Leo.
    The history of Hawaiian education and the important role that 
Hawaiian language medium education has played in that history is well 
documented in the Native Hawaiian Education Act. Also documented in the 
Act is suppression of the Native Hawaiian language in educational 
institutions under Federal policies--policies only reversed in the 1990 
Native American Languages Act which you introduced, Senator Inouye.
    During the short history of the Native Hawaiian Education Act, we 
have seen the 'Aha Punana Leo develop Hawaiian language preschool 
education from an illegal activity to one that has spread statewide and 
changed the course of K-12 education in Hawai'i and even higher 
education as evidenced by the creation of our College of Hawaiian 
language. While this change in the use of Hawaiian has been a very 
significant development, and one that has served as a model for other 
Native American peoples, the work of the 'Aha Punana Leo is still very 
much in the beginning stages compared to English medium preschool 
education for Native Hawaiians.
    During the entire period of the Native Hawaiian Education Act, the 
'Aha Punana Leo has been the sole entity that has had the expertise and 
fortitude to develop and maintain Hawaiian medium preschools on a 
statewide level. This one entity has carried Hawaiian medium preschool 
education all by itself while numerous public and private entities 
provided English medium preschool education for Native Hawaiians.
    The development of the 'Aha Punana Leo to its present statewide 
level of operations has depended greatly on competitive grants under 
the Native Hawaiian Education Act. It would be a major blow to the 
purposes and legacy of the Act if preschool education through Hawaiian 
came to an end simply because for some reason the 'Aha Punana Leo were 
not an awardee during a grant competition under the Act. The 
possibility of this has grown considerably with new provisions of 
Federal grant competition that favor new awardees over those with a 
long record of successful applications.
    Senator Inouye and members of the committee, we need to develop the 
'Aha Punana Leo's model of early childhood education taught through 
Hawaiian to a new and higher level, not eliminate it. There is much 
that needs to be done to take Hawaiian language medium preschool 
education to the next level. English medium preschool education will 
not die without your help, but Hawaiian medium preschool education, 
will. I therefore urge that a set aside be made for the 'Aha Punana Leo 
for Hawaiian medium preschool education development.
[GRAPHIC] [TIFF OMITTED] T9695.001

[GRAPHIC] [TIFF OMITTED] T9695.002

[GRAPHIC] [TIFF OMITTED] T9695.003

[GRAPHIC] [TIFF OMITTED] T9695.004

[GRAPHIC] [TIFF OMITTED] T9695.005

[GRAPHIC] [TIFF OMITTED] T9695.006

[GRAPHIC] [TIFF OMITTED] T9695.007

[GRAPHIC] [TIFF OMITTED] T9695.008

[GRAPHIC] [TIFF OMITTED] T9695.009

[GRAPHIC] [TIFF OMITTED] T9695.010

[GRAPHIC] [TIFF OMITTED] T9695.011

[GRAPHIC] [TIFF OMITTED] T9695.012

[GRAPHIC] [TIFF OMITTED] T9695.013

[GRAPHIC] [TIFF OMITTED] T9695.014

[GRAPHIC] [TIFF OMITTED] T9695.015

[GRAPHIC] [TIFF OMITTED] T9695.016

[GRAPHIC] [TIFF OMITTED] T9695.017

[GRAPHIC] [TIFF OMITTED] T9695.018

[GRAPHIC] [TIFF OMITTED] T9695.019

[GRAPHIC] [TIFF OMITTED] T9695.020

[GRAPHIC] [TIFF OMITTED] T9695.021

[GRAPHIC] [TIFF OMITTED] T9695.022

[GRAPHIC] [TIFF OMITTED] T9695.023

[GRAPHIC] [TIFF OMITTED] T9695.024

[GRAPHIC] [TIFF OMITTED] T9695.025

[GRAPHIC] [TIFF OMITTED] T9695.026

[GRAPHIC] [TIFF OMITTED] T9695.027

[GRAPHIC] [TIFF OMITTED] T9695.028

[GRAPHIC] [TIFF OMITTED] T9695.029

[GRAPHIC] [TIFF OMITTED] T9695.030

[GRAPHIC] [TIFF OMITTED] T9695.031

[GRAPHIC] [TIFF OMITTED] T9695.032

[GRAPHIC] [TIFF OMITTED] T9695.033

[GRAPHIC] [TIFF OMITTED] T9695.034

[GRAPHIC] [TIFF OMITTED] T9695.035

[GRAPHIC] [TIFF OMITTED] T9695.036

[GRAPHIC] [TIFF OMITTED] T9695.037

[GRAPHIC] [TIFF OMITTED] T9695.038

[GRAPHIC] [TIFF OMITTED] T9695.039

[GRAPHIC] [TIFF OMITTED] T9695.040

[GRAPHIC] [TIFF OMITTED] T9695.041

[GRAPHIC] [TIFF OMITTED] T9695.042

[GRAPHIC] [TIFF OMITTED] T9695.043

[GRAPHIC] [TIFF OMITTED] T9695.044

[GRAPHIC] [TIFF OMITTED] T9695.045

[GRAPHIC] [TIFF OMITTED] T9695.046

[GRAPHIC] [TIFF OMITTED] T9695.047

[GRAPHIC] [TIFF OMITTED] T9695.048

[GRAPHIC] [TIFF OMITTED] T9695.049

[GRAPHIC] [TIFF OMITTED] T9695.050

[GRAPHIC] [TIFF OMITTED] T9695.051

[GRAPHIC] [TIFF OMITTED] T9695.052

[GRAPHIC] [TIFF OMITTED] T9695.053

[GRAPHIC] [TIFF OMITTED] T9695.054

[GRAPHIC] [TIFF OMITTED] T9695.055

[GRAPHIC] [TIFF OMITTED] T9695.056

[GRAPHIC] [TIFF OMITTED] T9695.057

[GRAPHIC] [TIFF OMITTED] T9695.058

[GRAPHIC] [TIFF OMITTED] T9695.059

[GRAPHIC] [TIFF OMITTED] T9695.060

[GRAPHIC] [TIFF OMITTED] T9695.061

[GRAPHIC] [TIFF OMITTED] T9695.062

[GRAPHIC] [TIFF OMITTED] T9695.063

[GRAPHIC] [TIFF OMITTED] T9695.064

[GRAPHIC] [TIFF OMITTED] T9695.065

[GRAPHIC] [TIFF OMITTED] T9695.066

[GRAPHIC] [TIFF OMITTED] T9695.067

[GRAPHIC] [TIFF OMITTED] T9695.068

[GRAPHIC] [TIFF OMITTED] T9695.069

[GRAPHIC] [TIFF OMITTED] T9695.070

[GRAPHIC] [TIFF OMITTED] T9695.071

[GRAPHIC] [TIFF OMITTED] T9695.072

[GRAPHIC] [TIFF OMITTED] T9695.073

[GRAPHIC] [TIFF OMITTED] T9695.074

[GRAPHIC] [TIFF OMITTED] T9695.075

[GRAPHIC] [TIFF OMITTED] T9695.076

[GRAPHIC] [TIFF OMITTED] T9695.077

[GRAPHIC] [TIFF OMITTED] T9695.078

[GRAPHIC] [TIFF OMITTED] T9695.079

[GRAPHIC] [TIFF OMITTED] T9695.080

[GRAPHIC] [TIFF OMITTED] T9695.081

[GRAPHIC] [TIFF OMITTED] T9695.082

[GRAPHIC] [TIFF OMITTED] T9695.083

[GRAPHIC] [TIFF OMITTED] T9695.084

[GRAPHIC] [TIFF OMITTED] T9695.085

[GRAPHIC] [TIFF OMITTED] T9695.086

[GRAPHIC] [TIFF OMITTED] T9695.087

[GRAPHIC] [TIFF OMITTED] T9695.088

[GRAPHIC] [TIFF OMITTED] T9695.089

[GRAPHIC] [TIFF OMITTED] T9695.090

[GRAPHIC] [TIFF OMITTED] T9695.091

[GRAPHIC] [TIFF OMITTED] T9695.092

[GRAPHIC] [TIFF OMITTED] T9695.093

[GRAPHIC] [TIFF OMITTED] T9695.094

[GRAPHIC] [TIFF OMITTED] T9695.095

[GRAPHIC] [TIFF OMITTED] T9695.096

[GRAPHIC] [TIFF OMITTED] T9695.097

[GRAPHIC] [TIFF OMITTED] T9695.098

[GRAPHIC] [TIFF OMITTED] T9695.099

[GRAPHIC] [TIFF OMITTED] T9695.100

[GRAPHIC] [TIFF OMITTED] T9695.101

[GRAPHIC] [TIFF OMITTED] T9695.102

[GRAPHIC] [TIFF OMITTED] T9695.103

[GRAPHIC] [TIFF OMITTED] T9695.104

[GRAPHIC] [TIFF OMITTED] T9695.105

[GRAPHIC] [TIFF OMITTED] T9695.106

[GRAPHIC] [TIFF OMITTED] T9695.107

[GRAPHIC] [TIFF OMITTED] T9695.108

[GRAPHIC] [TIFF OMITTED] T9695.109

                               <greek-d>

</pre></body></html>
